Department of Veterans Affairs
Office of Inspector General




Semiannual Report to Congress
    Issue 67 | October 1, 2011 – March 31, 2012
Online Availability
This report is provided with our compliments. It is also available on our web site:
http://www.va.gov/oig/publications/semiannual-reports.asp


To access other OIG reports, visit: http://www.va.gov/oig/publications/




Additional Copies
Copies of this report are available to the public. Written requests should be sent to:

                                 Office of Inspector General (53B)
                                  Department of Veterans Affairs
                                    810 Vermont Avenue, NW
                                      Washington, DC 20420




Automatic Notifications
OIG offers a free subscription service that provides automatic notifications by e-mail when new
reports or other information is posted to the OIG web site. You may specify that you would like to
receive notification of all OIG reports or only certain types of OIG reports. In addition, you may
change your preferences or unsubscribe at any time. To receive e-mail notifications of additions to
the OIG web site, go to: http://www.va.gov/oig/email-alerts.asp and click on “Sign up to receive
e-mail updates.”

You can also sign up to receive OIG’s RSS feeds by visiting: http://www.va.gov/oig/rss/
   Nfttbhf gspn uif
                                                     Jotqfdups Hfofsbm
                                                  I am pleased to submit this issue of the Semiannual
                                                  Report to the Congress. Pursuant to the Inspector
                                                  General Act of 1978, as amended, this report presents
                                                  the results of our most signicant accomplishments
                                                  during the reporting period October 1, 2011 –
                                                  March 31, 2012.

                                                  During this reporting period, the Ofce of Inspector
                                                  General (OIG) issued 140 reports on VA programs and
                                                  operations. OIG investigations, inspections, audits,
                                                  evaluations, and other reviews identied over
                                                  $1.5 billion in monetary benets, for a return on
                                                  investment of $32 for every dollar expended on OIG
                                                  oversight.

                                                   OIG criminal investigators closed 553 investigations,
and made 268 arrests for a variety of crimes including fraud, bribery, embezzlement, identity theft, drug
diversion and illegal distribution, computer crimes, and personal and property crimes. OIG investigative
work also resulted in 292 administrative sanctions and corrective actions.

Our Ofce of Investigations continues to aggressively pursue allegations concerning ineligible businesses
that fraudulently obtain VA contracts set aside for Service-Disabled Veteran-Owned Small Businesses
(SDVOSB). During this reporting period, seven individuals associated with four companies were
arrested on a variety of Federal charges for their involvement in SDVOSB and related fraud. One of the
defendants was a retired VA employee who pled guilty to accepting approximately $20,000 in cash, luxury
baseball tickets, meals, and entertainment expenses from two Government contractors while he was
steering $3.4 million in SDVOSB set-aside contracts to his co-defendants. All defendants and companies
in these SDVOSB investigations have either been suspended or debarred from being awarded Federal
contracts or have been referred to the Suspension and Debarment Committee for action.

Additional OIG investigative work, with signicant assistance from our Ofce of Audits and Evaluations,
resulted in the convictions of a former VA employee and a court-appointed duciary who embezzled
nearly $900,000 from 10 separate Veteran beneciary accounts. Both defendants were each sentenced
to 36 months in prison. In another case, a multi-agency investigation led by OIG resulted in the conviction
of an individual who was operating an Internet printing business that sold counterfeit military awards and
training certicates from all service branches, as well as law enforcement awards and training certicates.

The Ofces of Audits and Evaluations and Healthcare Inspections have made prosthetic limb
management and care a primary focus of their work this reporting period. OIG published the rst ever
study to characterize the population of 1,288 Operation Enduring Freedom/Operation Iraqi Freedom/
Operation New Dawn (OEF/OIF/OND) service members with major traumatic amputations. OIG found
Veterans with traumatic amputations are a complex population with a variety of medical conditions and
are signicant users of all VA health care services, not just prosthetic services. Furthermore, OIG found
that OEF/OIF/OND Veterans generally were adapting to living with their amputations. However, Veterans
with upper extremity amputations consistently did not fare as well as those Veterans with lower extremity
amputations in their psychosocial adaptation, activity limitation, and prosthetic satisfaction.



WB P g g j d f pg J o t q f d u ps H f of s b m
×­­«» êé ¤ Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
                                                                                                            }2
                             Nfttbhf gspn uif Jotqfdups Hfofsbm- dpoujovfe

Additional OIG work on prosthetics focused on evaluating the management and acquisition practices
used by the Veterans Health Administration (VHA) to procure prosthetic limbs, and VA medical center
(VAMC) management of prosthetic inventories. OIG found overpayments for prosthetic limbs were
a systemic issue in VHA. If payment controls are not strengthened, VHA could continue to process
improper payments over the next 4 years with potential overpayments totaling $8.6 million. OIG’s work on
prosthetic inventory management revealed that VHA cannot accurately account for prosthetic inventories.
As a result, VAMCs spent about $35.5 million buying prosthetics in excess of current needs—increasing
the risks of supply expiration and waste.

OIG’s audit of VA’s internal controls over the use of disability benets questionnaires (DBQs) found that
the Veterans Benets Administration (VBA) needs more proactive measures to prevent and detect fraud.
Although VBA has a quality assurance review process for DBQs, it veries only a limited number of DBQs
and does so after claims are awarded. These quality assurance reviews do not provide reasonable
assurance that fraud will be detected in the DBQ program as it accepts claims. Given VBA’s plans to
deploy over 80 DBQs, it is important that adequate controls be put in place to protect future nancial
benets payments.

OIG oversight work on VHA’s Veterans Integrated Service Networks (VISNs) identied weaknesses in
VISNs’ stewardship of funds in the areas of travel, leased ofce space, and performance awards. OIG
found that VHA lacked nancial and budgetary controls and reliable stafng and expenditure data to
monitor the VISN ofces, evaluate their performance relative to their operational costs, and ensure the
effective and efcient use of funds. As a result, VISN operating costs have increased over
500 percent above the original estimate of $26.7 million that VHA provided when it rst established the
VISN ofces. Additionally, OIG found VHA lacked the management controls needed to oversee and
evaluate the effectiveness of VISN staff and organizational structures. The VISN ofces’ autonomy
allowed for unchecked lapses in ofce growth, the performance management system, and the evaluation
of fundamental stafng data. This resulted in unprecedented growth in organizational structures
and stafng levels, ineffective oversight and stewardship of VA funds, and signicant differences in
management and operations between each of the VISN ofces.

I want to express my appreciation for the hard work performed by our dedicated OIG employees who
strive to execute OIG’s mission to improve the economy, effectiveness, and efciency of VA programs;
and to prevent and to detect criminal activity, waste, abuse, and fraud. I also thank the Secretary,
Deputy Secretary, and other senior Department ofcials and their staffs for their support of our work and
receptiveness to our recommendations for improving VA programs and operations. We look forward to
continuing our partnership with the Department and Congress in the months ahead to meet the many
challenges facing VA as it works to ensure our Nation’s heroes receive the care, support, and recognition
they have earned in service to our country. Most of all, we thank our Veterans who have sacriced
generously and selessly to protect our freedom.




GEORGE J. OPFER
Inspector General


                                                                              WB P g g j d f pg J o t q f d u ps H f of s b m
3}                                                                        Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
Ubcmf pg Dpoufout
Message from the Inspector General | 1
Statistical Highlights | 4
VA and OIG Mission, Organization, and Resources | 6
Ofce of Healthcare Inspections | 9
        Combined Assessment Program Reviews | 9
        Community Based Outpatient Clinic Reviews | 9
        National Healthcare Reviews | 11
        Hotline Healthcare Inspections | 12
Ofce of Audits and Evaluations | 18
        Veterans Health Administration Audits and Evaluations | 18
        Veterans Benets Administration Audits | 20
        Veterans Benets Administration Benets Inspections | 20
        Other Audits and Evaluations | 21
Ofce of Investigations | 24
        Veterans Health Administration Investigations | 24
        Veterans Benets Administration Investigations | 29
        Other Investigations | 34
        Administrative Investigations | 37
        Assaults and Threats Made Against VA Employees | 38
        Fugitive Felons Arrested with OIG Assistance | 40
Ofce of Management and Administration | 41
        Hotline Division | 41
Ofce of Contract Review | 43
        Preaward Reviews | 43
        Postaward Reviews | 43
        Claim Reviews | 43
Other Signicant OIG Activities | 44
        Congressional Testimony | 44
        Special Recognition | 45
Appendix A: List of OIG Reports Issued | 46
Appendix B: Status of OIG Reports Unimplemented for Over 1 Year | 56
Appendix C: Inspector General Act Reporting Requirements | 69
Appendix D: Government Contractor Audit Findings | 71
Appendix E: American Recovery and Reinvestment Act Oversight Activities | 72
Appendix F: Restoring American Financial Stability Act Reporting Requirements | 73




WB P g g j d f pg J o t q f d u ps H f of s b m
Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
                                                                                }4
                                                           Tubujtujdbm Ijhimjhiut

                                October 1, 2011 – March 31, 2012
     Monetary Impact (in Millions)
     Better Use of Funds                                                                $47.8
     Fines, Penalties, Restitutions, and Civil Judgments                               $461.9
     Fugitive Felon Program                                                            $103.3
     Savings and Cost Avoidance                                                        $925.2
     Questioned Costs                                                                    $4.9
     Dollar Recoveries                                                                   $6.1
     Total Dollar Impact                                                              $1549.2
     Cost of OIG Operations1                                                            $48.5
     Return on Investment (Total Dollar Impact/Cost of OIG Operations)                   32:1
     Reports Issued
     Audits and Evaluations                                                                   17
     Benets Inspections                                                                      11
     National Healthcare Reviews                                                               3
     Hotline Healthcare Inspections                                                           21
     Combined Assessment Program Reviews                                                      24
     Community Based Outpatient Clinic Reviews (encompassing 49 facilities)                   10
     Administrative Investigations                                                             4
     Preaward Contract Reviews                                                                35
     Postaward Contract Reviews                                                               13
     Claim Reviews                                                                             2
     Total Reports Issued                                                                    140
     Investigative Activities
     Arrests (Not including Fugitive Felons)                                                 243
     Fugitive Felon Arrests                                                                   25
     Fugitive Felon Apprehensions by Other Agencies with OIG Assistance                       16
     Indictments                                                                             163
     Criminal Complaints                                                                      98
     Convictions                                                                             197
     Pretrial Diversions and Deferred Prosecutions                                            26
     Administrative Investigations Opened                                                     15
     Administrative Investigations Closed                                                     18
     Advisories Issued                                                                         6
     Closing Reports on Unsubstantiated Allegations                                           13
     Administrative Sanctions and Corrective Actions                                         292
     Cases Opened                                                                            524
     Cases Closed                                                                            553


                                                                       WB P g g j d f pg J o t q f d u ps H f of s b m
5}                                                                 Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
Tubujtujdbm Ijhimjhiut

                                                  October 1, 2011 – March 31, 2012
                    Healthcare Inspections Activities
                    Clinical Consultations                                                                                  2
                    Administrative Case Closures                                                                            7
                    Hotline Activities
                    Cases Opened                                                                                       526
                    Cases Closed                                                                                       550
                    Administrative Sanctions and Corrective Actions                                                    227
                    Substantiation Percentage Rate                                                                      36
                    Contacts                                                                                        14,103




1. Beginning in 2009, the 6-month and annual cost of operations for the Ofce of Healthcare Inspections ($10.07 million and
$20.14 million, respectively, for scal year 2012), whose oversight mission results in improving the health care provided to Veterans
rather than saving dollars, is not included in the return on investment calculation.


WB P g g j d f pg J o t q f d u ps H f of s b m
Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
                                                                                                                                        }6
         WB boe PJH Njttjpo- Pshboj{bujpo- boe Sftpvsdft

Department of Veterans Affairs
The Department’s mission is to serve America’s Veterans and their families with dignity and compassion
and to be their principal advocate in ensuring that they receive the care, support, and recognition earned
in service to the Nation. The VA motto comes from Abraham Lincoln’s second inaugural address, given
March 4, 1865, “to care for him who shall have borne the battle and for his widow and his orphan.”

While most Americans recognize VA as a Government agency, few realize that it is the second largest
Federal employer. For scal year (FY) 2012, VA is operating under a $124.2 billion budget, with over
317,000 employees serving an estimated 22.2 million living Veterans. To serve the Nation’s Veterans, VA
maintains facilities in every state, the District of Columbia, the Commonwealth of Puerto Rico, Guam, the
Republic of the Philippines, and the U.S. Virgin Islands.

VA has three administrations that serve Veterans: the Veterans Health Administration (VHA) provides
health care, the Veterans Benets Administration (VBA) provides monetary and readjustment benets,
and the National Cemetery Administration provides interment and memorial benets. For more
information, please visit the VA Internet home page at www.va.gov.


VA Ofce of Inspector General
The Ofce of Inspector General (OIG) was administratively established on January 1, 1978, to consolidate
audits and investigations into a cohesive, independent organization. In October 1978, the Inspector
General Act, Public Law (P.L.) 95-452, was enacted, establishing a statutory Inspector General (IG) in
VA. It states that the IG is responsible for: (1) conducting and supervising audits and investigations;
(2) recommending policies designed to promote economy and efciency in the administration of, and to
prevent and detect criminal activity, waste, abuse, and mismanagement in VA programs and operations;
and (3) keeping the Secretary and Congress fully informed about problems and deciencies in VA
programs and operations and the need for corrective action. The IG has authority to inquire into all VA
programs and activities as well as the related activities of persons or parties performing under grants,
contracts, or other agreements. Inherent in every OIG effort are the principles of quality management and
a desire to improve the way VA operates by helping it become more customer-driven and results-oriented.

OIG, with 609 employees from appropriations, is organized into three line elements: the Ofces of
Investigations, Audits and Evaluations, and Healthcare Inspections, plus a contract review ofce
and a support element. FY 2012 funding for OIG operations provides $112.4 million from ongoing
appropriations. The Ofce of Contract Review, with 25 employees, receives $4.7 million through a
reimbursable agreement with VA for contract review services including preaward and postaward contract
reviews and other pricing reviews of Federal Supply Schedule, construction, and health care provider
contracts. In addition to the Washington, DC, headquarters, OIG has eld ofces located throughout the
country.

OIG keeps the Secretary and Congress fully and currently informed about issues affecting VA programs
and the opportunities for improvement. In doing so, OIG staff strive to be leaders and innovators, and
to perform their duties fairly, honestly, and with the highest professional integrity. For more information,
please visit the OIG Internet home page at www.va.gov/oig.




                                                                                 WB P g g j d f pg J o t q f d u ps H f of s b m
7}                                                                           Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
    WB boe PJH Njttjpo- Pshboj{bujpo- boe Sftpvsdft
OIG Field Ofces Map




    WB P g g j d f pg J o t q f d u ps H f of s b m
    Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
                                                      }8
                     8|
                                                                                                                                                                                                                                                                                                    Office of Contract
                                                                                                                                                                                                       Inspector General                                                                                 Review
                                                                                                               Congressional                         Special Assistant to the                          ______________                                      Counselor to the
                                                                                                                 Relations                             Inspector General                                                                                  Inspector General
                                                                                                                                                                                                    Deputy Inspector General                                                                       Information Release
                                                                                                                                                                                                                                                                                                          Office




                                                                                                                    Assistant Inspector General                                  Assistant Inspector General
                                                                                                                                                                                   Audits and Evaluations                          Assistant Inspector General                       Assistant Inspector General
                                                                                                                           Investigations
                                                                                                                                                                                                                                 Management and Administration                         Healthcare Inspections
                                                                                                                                                                                                                                ____________________________                    ________________________________
                                                                                                           Deputy Assistant            Deputy Assistant                    Deputy Assistant       Deputy Assistant
                                                                                                          Inspector General           Inspector General                   Inspector General      Inspector General              Deputy Assistant Inspector General                Deputy Assistant Inspector General
                                                                                                            Investigations              Investigations                  Audits and Evaluations Audits and Evaluations
                                                                                                           (HQ Operations)            (Field Operations)                (HQ/Field Operations)    (Field Operations)


                                                                                                                                               Northeast Field Office
                                                                                                                           Criminal                 Newark, NJ
                                                                                                   Analysis and                                                                                                                              Operations                                                        Program
                                                                                                                        Investigations         (Bedford, MA; Buffalo,                                                                                                         Consultation and
                                                                                                    Oversight                                                                                                                                                                                              Administration and
                                                                                                                                                NY; Manchester, NH;                                                                                                           Medical Review
                                                                                                                                                                                                                                                                                                            Special Projects
                                                                                                                                                 New York City, NY)                                       Management
                                                                                                                           Benefits                                                                        Operations
                                                                                                                                              Mid-Atlantic Field Office                                                                      Information
                                                                                                                            Fraud                Washington, DC                                                                            Technology and
                                                                                                                                                                                                                                                                                 Healthcare
                                                                                                                                                  (Columbia, SC;                                                                            Data Analysis                                                     Biostatistics
                                                                                                                                                                                                                 Audit                                                        Financial Analysis
                                                                                                                                                 Fayetteville, NC;
                                                                                                                         Computer                                                                              Planning
                                                                                                   Administrative                                 Pittsburgh, PA)
                                                                                                   Investigations          Crimes                                                 Operations
                                                                                                                        and Forensics                                                                                                     Administrative and
                                                                                                                                               Southeast Field Office              Divisions
                                                                                                                                                                                                                                              Financial                          Combined                  Community Based
                                                                                                                                                   Bay Pines, FL                   Dallas, TX               Quality
                                                                                                                                                                                                                                             Operations                         Assessment                 Outpatient Clinics/
                                                                                                                                              (Atlanta, GA; Nashville,           Washington, DC            Assurance
                                                                                                                         Health Care                                                                                                                                             Program                     Vet Centers
                                                                                                                                               TN; Tallahassee, FL;
                                                                                                                           Fraud               West Palm Beach, FL)

                                                                                                                                                Central Field Office                Financial              Statistical
                                                                                                   Investigative                                                                                                                               Hotline
                                                                                                                                                    Chicago, IL                      Audits                Operations                                                                       Regional Offices
                                                                                                   Data Systems
                                                                                                                        Fugitive Felon                                                                                                                                                        Atlanta, GA
                                                                                                   and Analysis                               (Cleveland, OH; Denver,
                                                                                                                          Program                                                                                                                                                            Baltimore, MD
                                                                                                                                               CO; Kansas City, MO)
                                                                                                                                                                                    Benefits                                                                                                 Bay Pines, FL
                                                                                                                                             South Central Field Office            Inspection                                                                                                 Bedford, MA
                                                                                                                           Forensic                                                                                                            Budget                                         Chicago, IL
                                                                                                                                                    Dallas, TX                   (Bay Pines, FL;
                                                                                                                          Document                                                                                                                                                             Dallas, TX
                                                                                                                          Laboratory          (Houston, TX; Jackson,             San Diego, CA)
                                                                                                                                               MS; Little Rock, AR)                                                                                                                           Denver, CO
                                                                                                       Legal                                                                                                                                                                                Kansas City, MO
                                                                                                      Counsel                                                                                                                                                                               Los Angeles, CA
                                                                                                                                               Northwest Field Office                                              Operations Divisions
                                                                                                                                                                                   Information                        Atlanta, GA                                                            San Diego, CA
                                                                                                                                                San Francisco, CA
                                                                                                                                                                                 Technology and                                                                                               Seattle, WA
                                                                                                                                                   (Seattle, WA;                                                     Bay Pines, FL
                                                                                                                                                                                  Security Audits                     Bedford, MA                                                           Washington, DC
                                                                                                                                                  Spokane, WA)
                                                                                                                                                                                   (Austin, TX;                        Chicago, IL
                                                                                                                                                                                 Washington, DC)                    Kansas City, MO
                                                                                                                                                Western Field Office
                                                                                                                                                                                                                    Los Angeles, CA
                                                                                                                                                 Los Angeles, CA
                                                                                                                                                                                                                      Seattle, WA
                                                                                                                                                 (Las Vegas, NV;
                                                                                                                                                   Phoenix, AZ;
                                                                                                                                                  San Diego, CA)
                                                                                                   4/18/2011                                                                                                                                                                           INSPECTOR GENERAL
                                                                                                                                                                                                                                                                                     Department of Veterans Affairs
                                                                                                                                                                                                                                                                                                                                 VA and OIG Mission, Organization, and Resources




Issue 67 | October 1, 2011 — March 31, 2012
                                              VA O f f i c e o f I n s p e c t o r G e n e r a l
            df pg Ifbmuidbsf Jotqfdujpot
The health care that VHA provides Veterans is ranked consistently among the best in the Nation, whether
those Veterans are recently returned from Operations Enduring Freedom, Iraqi Freedom, or New Dawn
(OEF/OIF/OND), or are Veterans of other periods of service with different patterns of health care needs.
OIG oversight helps VHA maintain a fully functional program that ensures high-quality patient care
and safety, and safeguards against the occurrence of adverse events. The OIG Ofce of Healthcare
Inspections focuses on quality of care issues in VHA and assesses medical outcomes. During this
reporting period, OIG published 3 national healthcare reviews; 21 Hotline healthcare inspections;
24 Combined Assessment Program (CAP) reviews; and 10 Community Based Outpatient Clinic (CBOC)
reviews, covering 49 facilities, to evaluate the quality of care. These reports are listed in Appendix A.


Combined Assessment Program Reviews
CAP reviews are part of OIG’s efforts to ensure that quality health care services are provided to Veterans.
CAP reviews provide cyclical oversight of VHA health care facilities; their purpose is to review selected
clinical and administrative operations and to conduct crime awareness briengs. OIG also administers an
employee survey prior to each CAP visit, which provides employees the opportunity to condentially share
safety and quality concerns. During this reporting period, OIG issued 24 CAP reports. Topics reviewed
in a facility CAP may vary based on the facility’s mission. Topics generally run for 6–12 months; the CAP
topics under review from October 1, 2011 – March 31, 2012 were:

             •    Coordination of Care.                   •	 Poly Trauma.
             •	 Colorectal Cancer Screening.              •   Psychosocial Rehabilitation and
             •	 Environment of Care.                          Recovery Centers.

             •	 Medication Management.                    •	 Quality Management.

             •	 Moderate Sedation.


When ndings warrant more global attention, summary or “roll up” reports are prepared at the conclusion
of a topic’s use. During this reporting period, OIG issued one CAP summary report regarding VHA’s
management of multidrug-resistant organisms.


Community Based Outpatient Clinic Reviews
As requested in House Report 110-775, to accompany House Resolution 6599, Military Construction,
Veterans Affairs, and Related Agencies Appropriation Bill, FY 2009, OIG initiated a systematic review of
VHA CBOCs. The purpose of the cyclical reviews is to assess whether CBOCs are operated in a manner
that provides Veterans with consistent, safe, high-quality health care in accordance with VA policies and
procedures. The CBOC inspection process consists of four components: CBOC site-specic information
gathering and review, medical record reviews for determining compliance with VHA performance
measures, onsite inspections, and CBOC contract review.

The objectives of the reviews for the period October 1 – December 31, 2011, were to determine whether:
     •	 Short-term fee-basis authorization and follow-up processes for selected outpatient radiology
        consults ensure quality and timely patient care.
     •	 CBOCs comply with selected VHA requirements regarding the provision of mammography services
        for women Veterans.

WB P g g j d f pg J o t q f d u ps H f of s b m
Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
                                                                                                        }:
                                                       df pg Ifbmuidbsf Jotqfdujpot
   •	 CBOC providers are appropriately credentialed and privileged in accordance with VHA policy.
   •	 CBOCs are in compliance with standards of operations according to VHA policy in the areas of
      environmental safety and emergency planning.
   •	 Primary care and mental health (MH) services provided at contracted CBOCs are in compliance
      with contract provisions and whether VA contract oversight was effective.
   •	 CBOCs comply with selected standards in VHA Handbook 1160.01, Uniform Mental Health
      Services in VA Medical Centers (VAMCs) and Clinics, regarding the management of MH
      emergencies.
   •	 CBOCs have a skills competency assessment and validation policy and process in place.
   •	 Primary care active panel management and reporting are in compliance with VHA policy.

The objectives of the reviews for the period January 1 – March 31, 2012, included the rst ve objectives
listed above and added the following:
   •	 Determine if CBOCs have implemented the management of Diabetes Mellitus-Lower Limb
      Peripheral Vascular Disease in order to prevent lower limb amputation.
   •	 Assess the continuity of care for enrolled CBOC patients discharged from the parent facility in FY
      2011 with a primary diagnosis of congestive heart failure.
   •	 Determine if CBOC procedures regarding traveling Veterans are performed in accordance with
      VHA directives.

During this reporting period, OIG performed 49 CBOC reviews throughout 14 Veterans Integrated
Service Networks (VISNs). These reviews were captured in 10 reports. We made recommendations for
improvements at the following facilities:

   •	 VISN 1: Framingham, New Bedford, and Springeld, MA; Littleton, NH; and Bennington, VT
   •	 VISN 2: Catskill, Clifton Park, Elmira, Glens Falls, Jamestown, Lackawanna, and Schenectady, NY
   •	 VISN 5: Hagerstown, MD, and Petersburg, WV
   •	 VISN 7: Florence, Rock Hill, and Sumter (Sumter County), SC
   •	 VISN 8: Ft. Pierce and Okeechobee, FL
   •	 VISN 9: Charleston and Williamson, WV
   •	 VISN 10: Manseld and New Philadelphia, OH
   •	 VISN 16: Pensacola (Joint Ambulatory Care Center), FL
   •	 VISN 17: New Braunfels, San Antonio (North Central Federal Clinic), and Victoria, TX
   •	 VISN 18: Durango, CO; Raton and Silver City, NM; and Odessa, TX
   •	 VISN 19: Montrose and Pueblo, CO; and Gillette and Powell, WY
   •	 VISN 21: Chico, McClellan, and Oakland, CA; Agana Heights, GU; and Hilo, HI
   •	 VISN 22: Anaheim, Escondido, Laguna Hills, Lancaster, Oceanside, and Sepulveda, CA
   •	 VISN 23: Bellevue, Lincoln, and Norfolk, NE




                                                                              WB P g g j d f pg J o t q f d u ps H f of s b m
21 }                                                                      Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
            df pg Ifbmuidbsf Jotqfdujpot

National Healthcare Reviews
OIG Publishes First Ever Study of VA’s Capacity to Care for Veterans with Traumatic Amputations
At the request of the Chairman of the House Committee on Veterans’ Affairs, OIG conducted a review
to evaluate VA’s capacity to deliver prosthetic care. By analysis of integrated data from VA and
the Department of Defense (DoD) for nearly 500,000 Veterans, OIG found Veterans with traumatic
amputations are a complex population with a variety of medical conditions and are signicant users
of all VA health care services, not just prosthetic services. Furthermore, this is the rst ever study to
characterize the population of 1,288 OEF/OIF/OND service members with major traumatic amputations.
OIG found that OEF/OIF/OND Veterans generally were adapting to living with their amputations.
However, Veterans with upper extremity amputations consistently did not fare as well as those Veterans
with lower extremity amputations in their psychosocial adaptation, activity limitation, and prosthetic
satisfaction. OIG recommended that VHA consider: (1) the wide-ranging medical needs of traumatic
amputees beyond the prosthetic and MH concerns identied in this report; then adjust, if necessary, the
provision and management of health care services accordingly; (2) evaluating the needs of Veterans
with traumatic upper limb amputations to improve their satisfaction; and (3) Veterans’ concerns with
VA approval processes for fee-basis and VA contract care for prosthetic services to meet the needs of
Veterans with amputations. VHA concurred with our recommendations and provided acceptable action
plans.

Clearer Risk Warnings Needed for Chronic Kidney Patients Undergoing Procedures with Contrast
Media
The OIG assessed the extent to which informed consent was documented for Veterans with chronic
kidney disease who underwent procedures that involved intravascular injection of contrast media,
and described efforts to minimize kidney injury. OIG identied 107 patients with pre-existing kidney
impairment who underwent cardiac catheterizations or peripheral vascular procedures during April 1–
July 30, 2010. These patients needed to be aware of their higher risk of kidney injury in order to
give informed consent. OIG found that, although 101 patients (94 percent) signed informed consent
documents, only 24 informed consent documents (22 percent) included any information about the risk
of kidney injury. Explicit reference to the increased risk of kidney injury associated with contrast media
for patients with pre-existing kidney disease was present in only two informed consent documents.
However, practitioners evidently were aware of the increased risk of kidney injury because they ordered
interventions to mitigate kidney injury in 93 percent of these high-risk patients. OIG recommended that
the Under Secretary for Health implement a plan to ensure that patients with chronic kidney disease who
are undergoing procedures requiring contrast media be provided sufcient information to give informed
consent.

Better Education Could Further Reduce Risk of Multidrug-Resistant Organism Infection
OIG evaluated the management of multidrug-resistant organisms (MDRO) in VHA facilities by determining
whether facilities complied with applicable guidelines and standards regarding MDRO, hand hygiene,
isolation, and environmental cleanliness and whether facilities adequately communicated about patients
infected or colonized with MDRO. OIG conducted this review at 24 facilities during CAP reviews
performed from October 1, 2010, through March 31, 2011. VHA facilities recognized the importance of
establishing and maintaining measures to reduce the incidence of health care-associated infections due
to MDRO. OIG identied three areas where compliance with MDRO requirements needed improvement
and recommended that patients infected or colonized with MDRO and their families receive infection
prevention strategies education, that facilities provide MDRO education to designated staff based on risk

WB P g g j d f pg J o t q f d u ps H f of s b m
Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
                                                                                                       } 22
                                                       df pg Ifbmuidbsf Jotqfdujpot
assessment results, and that facilities develop policies and programs that control and reduce antimicrobial
agent usage.


Hotline Healthcare Inspections
Kansas Clinic Faulted for Mismanaging Patient’s Care; Reporting of Death, Triage, Physician
Supervision Also Criticized
An inspection was conducted by OIG to determine the validity of allegations regarding the quality of care
at the Salina, KS, CBOC. OIG substantiated the allegation that the care of the patient was mismanaged.
OIG was unable to determine and did not assert that a more prompt medical response would have
resulted in preventing the patient’s death. OIG found lack of proper, timely reporting of this death at
multiple levels, but could not substantiate that there was an institutional attempt by Salina CBOC or
facility staff to “cover-up” the mismanagement of the patient’s care; that the Root Cause Analysis (RCA)
was perfunctory or lacking in sufciently strong recommendations; and that facility management may
have taken adverse action against the individual who reported the incident. OIG found inadequate
triage practices, physician supervision, and physician availability on the day of the events in question;
oversight reviews of all the relevant clinicians who were, or should have been, involved in the patient’s
care were not performed; and that adversarial staff relationships existed at the CBOC which may have
impeded effective staff communication about the patient in this case. Additionally, OIG found that some
issues identied during the RCA were not fully corrected. Six recommendations were made to improve
operations.

OIG Finds Durham, North Carolina, VAMC Failed To Take Promised Actions To Help Veterans With
Home Improvement Grants
The OIG performed a follow-up review of the Durham, NC, VAMC, based on a complaint that
recommendations from our previous report, Prosthetic and Sensory Aids Service Records Review (Report
No. 11-01416-212, July 7, 2011), had not been fully implemented. The original report, completed at the
request of Senator Richard Burr, Ranking Member of the Senate Committee on Veterans’ Affairs, made
several recommendations to improve the management of the Prosthetics and Sensory Aids program. Due
to additional allegations we conducted this second review. The facility response outlines signicant steps
to strengthen controls and oversight over the Prosthetic and Sensory Aids Service.

Delayed Lung Cancer Diagnosis Allegations Not Substantiated at Southern Arizona Clinic
At the request of Senator Jon Kyl, the OIG conducted an inspection to determine the validity of allegations
concerning delay in cancer diagnosis and treatment at a Southern Arizona VA Health Care System (HCS)
CBOC. OIG did not substantiate the allegation that a CBOC provider failed to address the patient’s
complaints of fatigue and shortness of breath. OIG substantiated the allegation that the patient did not
receive a chest x-ray for a period between 2007 through his nal CBOC visit in February 2011. OIG could
not substantiate the allegation of delayed diagnosis of lung cancer because it is conjectural whether a
chest x-ray would have revealed a lung cancer when the patient was seen in 2010. OIG determined that
the provider did not fully evaluate the cause of the patient’s shortness of breath once cardiac causes
had been ruled out and did not directly address the patient’s gradual weight loss. The Southern Arizona
VAHCS had already implemented quality assurance measures to address the issues raised in our review.
We made no recommendations.




                                                                               WB P g g j d f pg J o t q f d u ps H f of s b m
23 }                                                                       Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
            df pg Ifbmuidbsf Jotqfdujpot
OIG Did Not Substantiate Quality of Care Issues at Edward Hines, Jr. , VA Hospital, Hines, Illinois
At the request of Congressman Peter Roskam’s ofce, the OIG conducted an inspection and oversight
review to determine the validity of allegations regarding the quality of care received by a patient at the
Edward Hines, Jr., VA Hospital, Hines, IL. OIG did not substantiate the allegations that the patient did not
receive help with his activities of daily living, or receive ordered rehabilitative treatments during his respite
care admission. OIG substantiated that the patient was seen by two staff physicians and a resident
physician during his 5-hour stay in the emergency department (ED), but did not substantiate that the
physicians did not communicate or coordinate care for the patient. OIG substantiated the allegation that
the patient did not receive rehabilitative treatments during his inpatient stay and while acutely ill; however,
he did not meet the criteria for an intervention. OIG did not substantiate the allegations that he had a
Foley catheter inserted, or that discharge instructions and medication reconciliation were not provided.
OIG made no recommendations.

VA Resolves Infection Control Issues at Dayton Dental Clinic, Ongoing Monitoring Processes
Adopted To Ensure Patient Safety
A review was conducted by OIG to follow-up on the report, Oversight Review of Dental Clinic Issues,
Dayton VA Medical Center, Dayton, OH (Report No. 10-03330-148, April 25, 2011). The purpose
was to determine whether the adverse conditions identied have been resolved and whether OIG’s
recommendations were implemented. In the past 18 months, facility managers have taken appropriate
actions and the conditions identied in the 2011 OIG report were resolved. Monitoring processes are in
place to ensure ongoing compliance with standards. OIG considers the recommendations closed.

OIG Reviews Circumstances Surrounding Veteran’s Self-Extubation and Subsequent Death at
Edward Hines Jr. VA Hospital, Hines, Illinois
OIG conducted an inspection at the Edward Hines Jr. VA Hospital, Hines, IL, at the request of the
Chicago, IL, OIG Ofce of Criminal Investigations Division. The inspection did not substantiate that
substandard quality of care contributed to the self-extubation and subsequent death of a Veteran, and
found that facility staff (the intensive care managers, respiratory care services manager, risk managers,
and performance improvement managers) had reviewed the incident and developed performance
improvement procedures. The inspection also revealed that the Biomedical Engineering Department
installed metal cages to prevent tampering, silencing, and disabling the telemetry alarms at the central
nurses’ station in the medical and surgical intensive care units. However, the design of the cages does
not prevent disabling of the alarms. OIG recommended reporting the incident to the VA National Center
for Patient Safety to decrease the potential for poor patient outcomes. The VISN and Facility Directors
agreed with the ndings and recommendations.

Sacramento VA’s Anesthesia Service Leadership, Stafng Found Lacking; Patient Privacy Breach
Also Noted
OIG conducted an oversight inspection to review actions taken to address a complainant’s allegations that
an anesthesiologist provided inadequate care to two patients, leadership did not take effective actions
to address Anesthesia Service operational issues, and providers breached patient privacy policy at the
Sacramento VAMC, Mather, CA. OIG did not substantiate the allegation that the subject anesthesiologist
provided inadequate anesthesia care. OIG substantiated the allegations that VAMC leaders had not
taken effective actions to resolve Anesthesia Service’s operational issues and that VAMC providers
breached patient privacy and VA information security policies. OIG recommended that the VAMC
Director: (1) comply with the Anesthesia Service’s leadership and stafng requirements as detailed in
the VISN Team report; (2) implement processes to formally monitor patient outcomes in the operating
room (OR) and promote a culture of patient safety in the OR, and address the concerns raised by the

WB P g g j d f pg J o t q f d u ps H f of s b m
Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
                                                                                                             } 24
                                                       df pg Ifbmuidbsf Jotqfdujpot
VISN team in its review of the Surgery and Anesthesia Services; and (3) consult with Regional Counsel
to determine whether patient notication of a breach in privacy is required. Management agreed with the
recommendations and provided acceptable action plans.

Pressure Ulcer and Privacy Incident Management Should Be Strengthened at Northport, New York,
VAMC
The OIG conducted a review to determine the validity of allegations that residents were malnourished
and abused, staff supported residents’ sexual activities in inappropriate ways, and that staff removed
condential employee information from the medical center. OIG did not substantiate the allegations of
malnutrition, abuse, or that staff supported resident’s sexual activities in inappropriate ways. However,
OIG did nd the pressure ulcer rates at the facility were higher than benchmarks. OIG could not
substantiate or refute the allegation that staff removed condential employee information from the medical
center, or the lack of Nurse Manager’s action. However, OIG did nd that medical center staff did not
provide timely communication and follow-up for a breach of privacy related to resident identication bands.
OIG recommended processes be strengthened to improve pressure ulcer management in the community
living center units. OIG also recommended that privacy incidents be managed in accordance with VA
policy related to timely follow-up and patient notication. The VISN and Medical Center Directors agreed
with our ndings and recommendations.

Quality of Care Allegations Against Northport, New York, VAMC ED Not Substantiated
OIG performed an inspection to determine the validity of allegations regarding quality of care in the
ED at the Northport, NY, VAMC. Specically, a complainant alleged that: (1) a Northport VAMC ED
physician failed to diagnose an acute myocardial infarction; and (2) a Northport VAMC ED physician
behaved unprofessionally. OIG did not substantiate the allegation that a VAMC ED physician failed to
diagnose an acute myocardial infarction. While the patient in question was ultimately shown to have
had an acute myocardial infarction, OIG found that the physician in question initiated an appropriate
evaluation for a patient presenting to an ED with atypical chest pain. The physician obtained a targeted
history and physical examination, an electrocardiogram, and appropriate blood tests. However, the
patient refused to remain in observation and left against medical advice, cutting short his evaluation.
OIG did not substantiate the allegation that the ED physician behaved unprofessionally. OIG did not nd
evidence that the physician yelled at another patient as alleged, nor did we nd evidence of any other
unprofessional behavior by the physician. OIG made no recommendations.

Triage, Communication, and Referral Practices Between ED and Primary Care in Need of
Improvement at Dallas VAMC
OIG conducted an inspection to determine the validity of allegations concerning quality of care, safety,
and management issues in the ED at the Dallas, TX, VAMC. OIG substantiated allegations of inadequate
triage practices by registered nurses (RNs), poor communication, and inappropriate referrals of patients
from the primary care clinics (PCCs) to the ED. OIG did not substantiate allegations of a delayed
admission, poor surgery response to ED consultation requests, inadequate stafng, inappropriate
scheduling of physicians, and excessive verbal and physical assaults on ED staff. Additionally, OIG
identied improvement opportunities related to orthopedic consultations, the work environment, and the
inter-facility transfer process. OIG recommended that the Facility Director ensure that: (1) RN triage
practices are consistently performed and that training is completed; (2) communication between the ED
and PCCs is improved; (3) managers monitor orthopedic surgery response timeliness; (4) ED managers
and staff undergo training to help promote a positive work environment; and (5) the current inter-facility
process is assessed and that appropriate administrative support is provided for required paperwork.
Management agreed with the ndings and recommendations and provided acceptable action plans.

                                                                              WB P g g j d f pg J o t q f d u ps H f of s b m
25 }                                                                      Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
            df pg Ifbmuidbsf Jotqfdujpot
Treatment Delays, Understafng Found at Buffalo, New York, VAMC ED
The merit of allegations concerning quality of care and physician stafng were assessed in the ED of
the VA Western New York HCS, Buffalo, NY. OIG substantiated the allegation that two patients did not
receive adequate evaluation and management in the ED. The same physician evaluated both patients
and both patients returned to the ED and required admission. OIG did not substantiate quality of care
concerns for a third patient. Facility managers had identied quality of care concerns with this physician,
yet they had not taken appropriate corrective actions in response to these concerns. OIG substantiated
the allegation that the ED was understaffed and that physicians often worked excessive clinical hours.
OIG also substantiated that the facility was on diversion overnight while two physicians were stafng the
ED and inpatient beds were available. However, OIG did not identify any patients who were diverted to
local hospitals. Four recommendations were made to improve quality of patient care and stafng in the
ED, as well as to follow-up on quality of care concerns raised in specic cases. The VISN and Interim
Facility Directors agreed with the ndings and recommendations and provided acceptable action plans.

Emergency Calls to San Diego Call Center Not Properly Triaged, Staff Training and Better
Management Oversight Needed
OIG conducted an inspection to determine the validity of multiple allegations regarding the management
of emergency calls at the Primary Care Call Center (PCCC), VA San Diego HCS, San Diego, CA. OIG
substantiated the allegations that PCCC agents were not following established procedures for referring
emergency calls for triage, PCCC agents were inexperienced and lacked appropriate training, and
managers did not evaluate the root causes of identied ongoing problems. OIG concluded that the PCCC
had serious problems that put patients at risk. OIG recommended that the System Director ensure that
Managers monitor PCCC agents’ compliance with procedures, and re-evaluate processes to ensure all
emergency calls are routed appropriately; PCCC agents receive initial training on required competencies
and that competencies are conrmed annually thereafter; and RCA in response to patient event reports
are completed and appropriate action taken as needed. The VISN and HCS Directors concurred with
OIG’s ndings and recommendations and provided acceptable action plans.

Better Medical Documentation, Staff Training Could Reduce Risk to Patients on a Telemetry Unit at
New York Harbor HCS
OIG conducted a review to determine the validity of an allegation regarding the quality of patient care on a
telemetry unit at the Manhattan Campus of the New York Harbor HCS, New York, NY. OIG could neither
conrm nor refute the allegation that a patient on the telemetry unit was not continuously monitored due
to a disconnected telemetry lead, malfunctioning monitoring equipment, or short stafng. However, OIG
identied two system weaknesses that increased the risk of patients not being adequately monitored:
(1) medical record documentation by unit staff did not meet industry or facility requirements; and
(2) telemetry unit nursing and biomedical engineering staff were not trained to properly use the telemetry
monitoring equipment. OIG made two recommendations to address these system weaknesses.
Management agreed with the ndings and recommendations and provided acceptable improvement
plans.

Most Allegations on Electroconvulsive Therapy at Boston HCS Unsubstantiated, But Machine
Quality Checks Lacking
OIG conducted a review to determine the validity of allegations that patients were not medically optimized
prior to electroconvulsive therapy (ECT) and that a patient underwent ECT without consent or the
knowledge that ECT could be refused. OIG did not substantiate these allegations and other allegations
related to improprieties in ECT research and inpatient MH unit census. OIG did substantiate that although
local maintenance was performed annually, the ECT machine was not sent to the manufacturer every

WB P g g j d f pg J o t q f d u ps H f of s b m
Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
                                                                                                        } 26
                                                         df pg Ifbmuidbsf Jotqfdujpot
2 years for a full quality control check, and that a psychiatrist initiated, but did not complete, electronic
medical record notes for residents she supervised. OIG recommended that the HCS Director implement
procedures to ensure that the manufacturer’s recommended maintenance for the ECT machine is
followed as prescribed.

Use of Restraints at Salem, Virginia, VAMC Found To Be Appropriate
OIG conducted an inspection to determine the validity of allegations regarding the use of restraints at
the Salem, VA, VAMC. A complainant alleged that a nurse made comments that provoked a patient
into striking two staff members, which resulted in the patient being kept in restraints as punishment
for more than 24 hours. The complainant also alleged that facility leadership did not respond to past
reported allegations of other patient mistreatment. OIG did not substantiate the allegations. OIG found
no evidence that a nurse provoked the patient to act out, or that the patient was kept in restraints as
a form of punishment. The initiation and continued use of restraints was appropriate and adequately
documented to ensure the patient and staff members’ safety. We found that facility leaders investigated
the patient’s mistreatment allegations and determined that no further action was required. OIG identied
an opportunity to improve the observation and 15-minute check sheets used for patients in restraints. OIG
discussed this with facility leaders while onsite. Therefore, we made no recommendations.

OIG Did Not Substantiate Discharge, Travel, and Treatment Issues at Harry S. Truman Memorial
Veterans’ Hospital, Columbia, Missouri
OIG evaluated allegations of premature discharge, excessively long travel distance, and unsuccessful
treatment in a patient with end-stage liver disease. These complaints related to two episodes of VA
fee-based care at a St. Louis area private-sector hospital. OIG did not substantiate the complainant’s
allegation that “someone dropped the ball” in the care of this patient. The patient was referred by
providers at the Harry S. Truman Memorial Veterans’ Hospital to a qualied private-sector specialist for
a transjugular intrahepatic portosystemic shunt procedure. The patient and his wife were aware of the
rationale for the procedure, location of the private sector hospital, and the potential complications. The
patient was discharged in stable condition, and the medical record reects adequate communication
between the various medical providers to ensure continuity of care. OIG made no recommendations.

Poor Coordination of Care and Resource Allocation Not Substantiated for VISN 20 and Southern
Oregon Rehabilitation Center and Clinics, White City, Oregon
OIG evaluated the validity of allegations regarding poor coordination and resource allocation within VISN
20 and at the VA Southern Oregon Rehabilitation Center and Clinics (SORCC), White City, OR. OIG
did not substantiate allegations regarding poor coordination of care and resource allocation in regard to
SORCC. While patients do encounter delays in gaining access to specialty services in non-emergent
situations, we found that SORCC, in conjunction with VISN 20, is actively engaged in a process to
improve timeliness of surgical and imaging services for its beneciaries. OIG did not substantiate that
care reviewed in orthopedic surgery, neurologic surgery, and imaging services was below VA standards.
OIG found that the completion of consults and the delivery of recommended treatments at SORCC
occurred in compliance with prioritization as outlined in VA’s Federal Benets for Veterans, Dependents,
and Survivors. While timeliness of surgical specialty referral appointments and care is not always optimal,
this does not equate to a breach in VA standards. OIG made no recommendations.




                                                                                 WB P g g j d f pg J o t q f d u ps H f of s b m
27 }                                                                         Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
            df pg Ifbmuidbsf Jotqfdujpot
Veterans at Temple, Texas, Not Receiving Timely Specialty Medical Care, Accuracy of VA Wait
Times Data Questioned
OIG conducted an inspection to determine the validity of allegations regarding patient care delays and
reusable medical equipment (RME) concerns at the Olin E. Teague VAMC in Temple, TX. A complainant
alleged that: (1) hundreds of scheduled gastroenterology (GI), mammogram, radiation oncology, and
breast biopsy fee-basis consults dating back to 2009 place the health of patients at risk; (2) prolonged
wait times for GI care lead to delays in diagnosis of colorectal and other cancers; and (3) RME issues
have not been properly addressed, including unclean scopes that were almost used on patients,
equipment failures, and use of new equipment without an approved standard operating procedure. OIG
substantiated hundreds of fee-basis GI, mammogram, radiation oncology, and breast biopsy consults
requiring action; however, OIG did not nd evidence of patient harm due to delays in follow-up. OIG
substantiated GI wait times in excess of VHA requirements following initial positive screenings. In
addition, staff indicated that appointments were routinely made incorrectly by using the next available
appointment date instead of the patient’s desired date. OIG did not substantiate that RME issues have
not been properly addressed. OIG made three recommendations.

OIG Reviews Allegations Regarding Minneapolis, Minnesota, Outpatient Dental Clinic
OIG conducted an inspection to determine the validity of allegations regarding a failure to obtain informed
consent, communicate the plan of care to family and non-VA nursing home (NH) staff, and provide
appropriate care after a dental procedure at the Minneapolis, MN, VAHCS outpatient dental clinic. OIG
did not substantiate that the provider failed to obtain informed consent prior to extracting multiple teeth.
The provider determined that the patient had decision-making capacity and was able to participate in the
informed consent process on the day of the oral surgery procedure. OIG substantiated that family and
NH staff were not aware of the planned extractions. Prior to OIG’s arrival, the facility had taken steps to
improve the content and ow of information between NHs and facility clinics. The facility subsequently
established plans for additional improvement. OIG did not substantiate that VA failed to provide
appropriate post-extraction care. OIG made no recommendations.

OIG Substantiated Delay in Hyperthyroidism Diagnosis, But Patient Outcome Not Negatively
Impacted at Tennessee Valley HCS
The OIG evaluated allegations of a delay in Graves’ disease diagnosis and treatment at a CBOC
in the Tennessee Valley HCS. OIG substantiated that there was about a 6-week delay in initiating
the appropriate work-up of a patient’s hyperthyroidism. However, this delay did not cause a delay in
treatment that harmed the patient or negatively impacted his outcome. OIG also found that other HCS
providers failed to notify the patient of both abnormal and normal test results in a timely manner. OIG
recommended that the HCS Director require that providers ordering laboratory, radiographic, and other
tests and studies inform patients of test results and arrange for appropriate follow-up according to policy.
The VISN and HCS Directors agreed with our report.




WB P g g j d f pg J o t q f d u ps H f of s b m
Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
                                                                                                          } 28
                                                   df pg Bvejut boe Fwbmvbujpot

Veterans Health Administration Audits and Evaluations
OIG audits and evaluations of VHA programs focus on the effectiveness of health care delivery for
Veterans. These audits and evaluations identify opportunities for enhancing management of program
operations and provide VA with constructive recommendations to improve health care delivery.

Better Management of Prosthetics Inventories Could Save VA $35 Million and Avoid Disruptions to
Patients
OIG conducted this audit to evaluate VAMCs’ prosthetic inventory management. OIG found VHA cannot
accurately account for prosthetic inventories. VAMC inventories exceeded current needs for almost
47 percent of approximately 93,000 specic prosthetic items and inventories were too low for nearly
11 percent of the items. As a result, VAMCs spent about $35.5 million buying prosthetics in excess of
current needs—increasing the risks of supply expiration. Inaccurate inventories disrupt patient care due
to shortages and lead to losses associated with diversion. OIG recommended the Under Secretary for
Health develop plans to implement an improved inventory system and develop a training-to-certication
program for prosthetic inventory managers. The Under Secretary for Health concurred with our ndings.

VA Can Save Almost $11M with Better Controls Over Payments for Prosthetic Limbs
At the request of the House Veterans’ Affairs Committee Chairman, OIG evaluated the management
and acquisition practices the VHA used to procure prosthetic limbs. In each of the last 5 years, VHA has
served nearly 12,000 amputees. VA procures prosthetic limbs or fabricates them in prosthetic labs. OIG
found overpayments for prosthetic limbs were a systemic issue in VA. Of the 3,900 payments examined
by OIG, 915 (23 percent) included overpayments. These overpayments were valued at about $2.2 million
for FY 2010 and collection actions are in process to recover these overpayments. VHA could continue to
process improper payments over the next 4 years if it does not strengthen controls over payments. OIG
estimated the value of these potential overpayments at $8.6 million. Finally, VHA management did not
know the current capabilities of their labs. Overall, VHA needs to strengthen management and acquisition
practices to procure and fabricate prosthetic limbs. The Under Secretary for Health concurred with our
ndings and recommendations.

Homeless Veteran Program Lacks Safety, Security & Health Standards, Better Grant Evaluation
Process & Oversight Needed
OIG conducted this audit to determine whether community agencies receiving funds from the Grant and
Per Diem Program (GPDP) are providing services to homeless Veterans as agreed upon in their grant
agreements. OIG also examined whether program funding is effectively aligned with program priorities.
OIG found the VHA GPDP provided services to homeless Veterans and had successfully assisted
Veterans to live independently in safe and affordable permanent housing. However, an incomplete
grant application evaluation process; a lack of program safety, security, privacy, and health and welfare
standards; and an inconsistent monitoring program impacted the program’s effectiveness. As a result,
VHA did not ensure homeless Veterans consistently received the supportive services agreed to in
approved grants. In addition, funding was not aligned effectively with program goals. OIG recommended
strengthening the grant application and evaluation process by publishing policies and standards, updating
the inspection checklists, and implementing procedures to ensure grant providers have the capability to
deliver services. The Under Secretary for Health concurred with OIG’s ndings and recommendations
and provided appropriate action plans.




                                                                              WB P g g j d f pg J o t q f d u ps H f of s b m
29 }                                                                      Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
            df pg Bvejut boe Fwbmvbujpot
Weak Controls Over Non-VA Fee Care Results in $11.4 Million Budget Shortfall at Phoenix,
Arizona, HCS
The Phoenix, AZ, HCS allegedly experienced a budget shortfall at the end of FY 2010 due to
mismanagement of their Non-VA Fee Care Program. OIG substantiated that the Phoenix HCS
experienced an $11.4 million budget shortfall, which was equivalent to 20 percent of the Non-VA Fee Care
Program funds for that year. The shortfall was due to the lack of effective pre-authorization procedures.
They also lacked adequate procedures to obligate sufcient funds to pay for all fee care services
processed during this period, over $56 million. In addition, HCS staff did not determine if the patients
could receive services in a VA inpatient facility to avoid using the Non-VA Fee Care program. Since the
discovery of the budget shortfall, the HCS has initiated several corrective actions to reduce the risk of
future shortfalls and strengthen the management of their Non-VA Fee Care Program.

Audit Finds Major Acquisition Reviews Performed Only on 32 Percent of VA Contracts, $2.9M
Could Be Saved with Competition
This audit examined how well recent major acquisition process changes strengthened the quality of VHA’s
contracts. The changes were not effective because new Integrated Oversight Processes (IOP) were not
followed consistently and VA and VHA acquisition management did not provide adequate guidance and
oversight needed to implement these processes. While the quality of contracts improved when the IOP
was used, VHA did not perform IOP reviews for an estimated 3,000 contracts, which were valued at
$1.58 billion and awarded between June 2009 and May 2010. OIG also found that VHA needs
management tools to effectively monitor contract workload and optimal stafng levels. Comparisons of
Government cost estimates for noncompetitive contracts showed VA could have put about $2.9 million to
better use through competitive procurements. Without these tools, VHA lacks the information needed to
effectively manage its contracting activities.

VISNs Overseeing VA Medical Facilities Lack Adequate Financial Management, Fiscal Controls
OIG conducted this audit to determine whether VHA’s VISN ofce management controls and scal
operations promoted the proper stewardship of VA funds. OIG found VHA lacked budgetary controls
and reliable data to monitor VISN ofces, evaluate performance relative to operational costs, and ensure
the effective and efcient use of funds. VHA allowed VISN ofces to operate independently, believing
required scal controls were in place. However, growth in the ofces’ costs and increases in operational
costs show VHA needs stronger VISN ofce scal controls. OIG recommended VHA implement a
nancial management system and scal controls. The Under Secretary for Health agreed with OIG’s
ndings and recommendations and provided appropriate action plans.

Unmonitored Staff Growth, Inadequate Performance Management Noted at VISNs Overseeing VA
Medical Facilities
In a related audit, OIG found VHA lacked the management controls needed to oversee and evaluate
the effectiveness of VISN staff and organizational structures. The VISN ofces’ autonomy allowed for
unchecked lapses in ofce growth, a weak performance management system, and a lack of complete
fundamental stafng data used in decision-making. This resulted in unjustied organizational structures
and stafng levels, ineffective oversight and stewardship of VA funds, and signicant differences in
management and operations between each of the VISN ofces. OIG recommended VHA strengthen the
VISN ofces’ system for performance management and implement controls over organizational structures
and stafng. The Under Secretary for Health agreed with the ndings and recommendations and provided
appropriate action plans.



WB P g g j d f pg J o t q f d u ps H f of s b m
Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
                                                                                                      } 2:
                                                   df pg Bvejut boe Fwbmvbujpot

Veterans Benets Administration Audits
OIG performs audits and evaluations of Veterans’ benets programs focusing on the effectiveness
of benets delivery to Veterans, dependents, and survivors. These audits and evaluations identify
opportunities for enhancing the management of program operations and provide VA with constructive
recommendations to improve the delivery of benets.

VBA Needs More Proactive Measures to Prevent and Detect Fraud in New Process to Obtain
Medical Evidence from Private Physicians
This audit was conducted by OIG to provide an early assessment of VA’s internal controls over the use of
disability benets questionnaires (DBQs). OIG wanted to determine whether adequate front-end controls
to identify and minimize risks were in place before benet payments were initiated. VA implemented the
new DBQ process to reduce the claims backlog by changing the way VA collects medical evidence to
support claims. VA expects DBQs to replace the current need for Compensation and Pension medical
exams by relying on information from Veterans and private physicians. OIG expects the volume of claims
processed using DBQs to increase signicantly. OIG’s review found VA has a quality assurance review
process, but it veries only a limited number of DBQs and does so after claims are awarded. These
quality assurance reviews do not provide reasonable assurance that fraud will be detected in the DBQ
program as it accepts claims. The Under Secretary for Benets and Under Secretary for Health generally
concurred with the report recommendations. OIG will follow-up on the implementation of corrective
actions.


Veterans Benets Administration Benets Inspections
The Benets Inspection Program is part of OIG’s efforts to ensure our Nation’s Veterans receive timely
and accurate benets and services. These independent inspections provide recurring oversight of VA
Regional Ofces (VAROs), focusing on disability compensation claims processing and performance of
Veterans Service Center operations. Our objectives are to evaluate how well VAROs are accomplishing
their mission of providing Veterans with convenient access to high quality benets services and report
systemic trends in VARO operations. We also determine whether management controls ensure
compliance with VA regulations and policies, assist management in achieving program goals, and
minimize the risk of fraud, waste, and other abuses. Benets inspections may also examine issues or
allegations referred by VA employees, members of Congress, or other stakeholders.

The Benets Inspection Divisions issued 11 reports during the period October 1, 2011, through
March 31, 2012, which are listed in Appendix A. Key results of our inspections are as follows:

   •	 Claims Processing: 36 percent of benet claims we reviewed requiring a rating decision were
      processed in error. These errors involved claims related to traumatic brain injury, herbicide
      exposure-related disabilities, and temporary 100 percent disability evaluations.
   •	 Competency Determinations: 42 percent of nal competency determinations were not completed
      timely. The risk of incompetent beneciaries receiving benets payments without duciaries
      assigned to ensure the welfare of beneciaries and effective funds management increases when
      competency determinations are not timely.
   •	 Homeless Veterans Outreach: 45 percent of the VAROs inspected did not provide adequate
      outreach to homeless shelters and service providers.


                                                                             WB P g g j d f pg J o t q f d u ps H f of s b m
31 }                                                                     Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
            df pg Bvejut boe Fwbmvbujpot

Other Audits and Evaluations
OIG performs audits of nancial management operations, focusing on adequacy of VA nancial
management systems in providing managers information needed to efciently and effectively manage
and safeguard VA assets and resources. OIG oversight work satises the Chief Financial Ofcers Act of
1990, P.L. 101-576, audit requirements for Federal nancial statements and provides timely, independent,
and constructive evaluations of nancial information, programs, and activities.

OIG also performs audits of information management operations and policies, focusing on adequacy
of VA information technology (IT) security policies and procedures for managing and safeguarding VA
program integrity and patient information security. OIG oversight in IT includes meeting its statutory
requirement to review VA’s compliance with the Federal Information Security Management Act of
2002, P.L. 107-347, as well as IT security evaluations conducted as part of the Consolidated Financial
Statements audit. These evaluations have led OIG to report information security and security of data and
data systems as a major management challenge for VA. OIG’s audit reports present VA with constructive
recommendations needed to improve IT management and security.

Review of Alleged Contract Irregularities in VA’s Ofce of Information and Technology Results in
Termination of Underutilized Contract
OIG conducted an audit to determine whether the Ofce of Information and Technology’s (OIT’s) Ofce
of Architecture, Strategy, and Design ofcials directed contractor personnel to perform work outside the
scope of a task order. Although OIG substantiated the allegation, there was no evidence that this work
was actually completed. However, OIG did nd that the work the contractor was doing did not meet the
overall intent of the task order—technical reviews of OIT systems. OIG’s review questioned $1,651,215
for an underutilized task order for the rst and second option years. Additionally, OIT could better use
$786,840 by either exercising the third option year then having the contractor perform the required
technical reviews of OIT systems, or terminating the task order altogether. OIG recommended OIT
terminate the task order. The Principal Deputy Assistant Secretary (PDAS) for OIT agreed with OIG’s
ndings and recommendations and terminated the contract.

Audit Finds 80 Percent of Retention Bonuses Poorly Justied, Questions $1.06 Million in VA
Spending
This audit determined the adequacy of VHA and VA Central Ofce (VACO) processes for awarding
retention incentives. In FY 2010, VA paid nearly $111 million in retention incentives to just under
16,500 employees. OIG found VHA and VACO approving ofcials did not adequately justify and
document retention incentive awards valued at $1.06 million in accordance with VA policy. VA lacked
clear guidance, oversight, and training to effectively support the program. Ofcials did not effectively
use the Personnel and Accounting Integrated Data system to generate timely review notices and did
not always stop retention incentives at the end of set payment periods. Based on these ndings, OIG
questioned the appropriateness of 96 (80 percent) of 120 VHA incentives and 30 (79 percent) of 38 VACO
incentives OIG reviewed. These incentives totaled about $1.06 million in FY 2010. OIG recommended
revised and claried guidance, as well as controls to ensure proper documentation and training was
applied throughout the program.

Failure to Disclose Relevant Selection Factors Shows Potential Bias in $133 Million IT Contract
OIG evaluated the Secure VA-Chief Information Security Ofcer Support Services acquisition process to
determine whether the solicitation, proposal evaluation, and contract award processes were conducted
in line with full and open competition requirements. OIG found the acquisition process demonstrated a

WB P g g j d f pg J o t q f d u ps H f of s b m
Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
                                                                                                      } 32
                                                    df pg Bvejut boe Fwbmvbujpot
potential bias by using knowledge of VA procedures and practices as a signicant selection factor without
clear disclosure of its relative importance when asking for bids. As such, the technical evaluation process
favored awarding the contract to the incumbent, Booz-Allen Hamilton, the same contractor who provided
VA’s Information Assurance and Information Technology Security Services for the past 2 years. VA
awarded the contract for $133 million at a premium of 16 percent ($18 million) and 22 percent
($24 million) over the two other offerors.

Stronger Security Controls Needed to Check Unauthorized Access to VA Financial Dashboard
Information
OIG evaluated the merits of allegations that VA did not use an appropriate contract vehicle to develop
and implement the “Systems to Drive Performance” (STDP) dashboard, a system to track cost accounting
data to facilitate senior leadership decision making. OIG did not substantiate the allegations regarding an
inappropriate STDP contract vehicle, inadequate system testing, and system redundancy. However, OIG
substantiated the allegation that VA did not adequately protect sensitive information from unauthorized
access and disclosure. Specically, OIG determined that more than 20 system users had inappropriate
access to sensitive STDP information. VA’s National Data Systems Group did not consistently approve
requests for user access to STDP. Further, project managers did not report unauthorized access as a
security event. STDP project managers were not fully aware of VA’s security requirements for system
development, nor had they formalized user account management procedures. Inadequate Information
Security Ofcer oversight contributed to weaknesses in user account management and failure to report
excessive user privileges as security violations. The PDAS for OIT and the Executive in Charge, Ofce of
Management agreed with OIG’s ndings and recommendations.

VA Receives Unqualied Opinion on FYs 2011 and 2010 Consolidated Financial Statements
OIG contracted with the independent public accounting rm, Clifton Gunderson LLP, to audit VA’s
consolidated nancial statements. This audit is an annual requirement of the Chief Financial Ofcers
Act of 1990. Clifton Gunderson LLP provided an unqualied opinion on VA’s FY 2011 and 2010
consolidated nancial statements. With respect to internal control, Clifton Gunderson LLP identied
one material weakness, information technology security controls, which is a repeat condition. They
also reported two signicant deciencies, accrued operating expenses, which is a repeat condition,
and loan guaranty reporting. The department has taken corrective actions sufcient to eliminate four
other signicant deciencies previously cited last year. Clifton Gunderson LLP reported that VA did
not substantially comply with the Federal nancial management systems requirements of the Federal
Financial Management Improvement Act of 1996. They also noted instances of non-compliance with the
Debt Collection Improvement Act of 1996.

Management of VA Program to Lease Underutilized Property Criticized, New Policies, Better
Oversight Needed
OIG conducted this audit to assess VA’s implementation of the Enhanced-Use Lease program, through
which VA manages and maintains its capital asset inventory. OIG found the management of the
program needs improvement: undocumented major project decisions, an overall lack of transparency,
and inaccurate accounting practices caused OIG to question whether certain agreements effectively
served the best interests of VA and Veterans. In addition, justications for delayed execution of lease
agreements, which escalated maintenance costs, could not be substantiated. OIG recommended
the Executive in Charge establish oversight mechanisms to ensure compliance, improve accounting
procedures, and establish performance measures to gauge program success and timeliness. The
Executive in Charge for the Ofce of Management agreed with our nding and recommendations. They
are preparing a detailed implementation plan to address the audit recommendations. OIG will assess the

                                                                               WB P g g j d f pg J o t q f d u ps H f of s b m
33 }                                                                       Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
            df pg Bvejut boe Fwbmvbujpot
effectiveness of VA’s proposed implementation plan and follow up as required on all actions.

VA’s Reporting on Improper Payments Not in Full Compliance with Improper Payments Elimination
and Recovery Act
OIG conducted this review as required by the Improper Payments Elimination and Recovery Act (IPERA).
OIG evaluated VA’s accuracy, completeness of reporting, and performance in reducing and recapturing
improper payments. OIG found VA did not fully comply with the IPERA requirements. VA reported
improper payment rates greater than 10 percent for 3 VHA programs. OIG identied an additional
fourth program also exceeded 10 percent. VHA’s statistical sampling methodology did not achieve
the required margin of error and VBA did not consult with a statistician, nor calculate margins of error.
Further, OIG’s calculated improper payment estimates did not match that reported in VA’s Performance
and Accountability Report for VBA’s Compensation and Pension programs, likely due to the Pension
program’s signicantly understated rate. In addition, VA’s reduction targets for two programs were not
met. OIG recommended VA take steps to ensure compliance with IPERA. OIG requested VA provide
acceptable implementation plans within 30 days of this report to address the recommendations.




WB P g g j d f pg J o t q f d u ps H f of s b m
Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
                                                                                                     } 34
                                                                        df pg Jowftujhbujpot

Veterans Health Administration Investigations
The Ofce of Investigations conducts criminal investigations into allegations of patient abuse, drug
diversion, theft of VA pharmaceuticals or medical equipment, false claims for health care benets, and
other frauds relating to the delivery of health care to millions of Veterans. In the area of health care
delivery, OIG opened 235 cases, made 137 arrests, and obtained over $435.7 million in nes, restitution,
penalties, and civil judgments, and achieved over $2 million in savings, efciencies, cost avoidance, and
recoveries. One case in particular resulted in a $321 million criminal ne and a $628 million civil penalty
of which VA will receive $28,486,500 as a result of the civil settlement.

During this reporting period, OIG opened 58 investigations regarding diversion of controlled substances.
Subjects of these investigations included VA employees, Veterans, and private citizens. Fifty-eight
defendants were charged with various crimes relating to drug diversion. These investigations resulted in
$138,780 in nes, restitution, penalties, and civil judgments as well as $819,805 in savings, efciencies,
cost avoidance, and recoveries. OIG also initiated seven investigations related to the fraudulent receipt
of health benets, which resulted in three defendants being charged with various related crimes. These
investigations resulted in $48,869 in nes, restitution, penalties, and civil judgments as well as $415,755
in savings, efciencies, cost avoidance, and recoveries. OIG opened 49 beneciary travel fraud
investigations involving VA patients who grossly inate their mileage to and from VA facilities to increase
their reimbursement for travel expenses. These investigations resulted in 31 arrests, $168,556 in nes,
restitution, penalties, and civil judgments. The following entries provide a representative sample of the
type of VHA investigations conducted during this reporting period.

Former St. Louis, Missouri, VAMC Employee Pleads Guilty to Bribery and SDVOSB Fraud
A former VA employee pled guilty to a criminal information charging him with accepting illegal gratuities
from Government contractors while he was employed at the St. Louis, MO, VAMC. The defendant
admitted to accepting approximately $20,000 in cash, luxury baseball tickets, meals, and entertainment
at a local club from two Government contractors while he was steering $3.4 million in SDVOSB set-aside
contracts to their companies. Both contractors previously pled guilty to a criminal information charging
them with conspiracy related to paying improper bribes and gratuities to a Federal ofcial, mail fraud, wire
fraud, and making false statements. The contractors established a front company, purportedly owned
and operated by a service-disabled Veteran, when in actuality, it was controlled and managed by the
contractors.
Miami, Florida, VAMC Employee Indicted for Identity Fraud
A Miami, FL, VAMC employee was indicted for aggravated identity fraud and access device fraud. An
OIG, U.S. Secret Service, and U.S. Postal Inspection Service investigation revealed that the defendant
sold personally identiable information of 22 Veterans to an undercover law enforcement agent on two
separate occasions.

Pharmaceutical Company Pleads Guilty to Off-Label Marketing
Merck, a major U.S. pharmaceutical company, pled guilty to distribution of a misbranded drug and
also entered into a civil agreement with the Government. Under the terms of the plea agreements, the
company will pay a $321 million criminal ne and a $628 million civil penalty. VA will receive $28,486,500
as a result of the civil settlement. The plea and settlements are the result of a multi-agency investigation
involving the company’s off-label marketing and promotion of the drug Vioxx and false statements about
the drug’s safety.



                                                                                WB P g g j d f pg J o t q f d u ps H f of s b m
35 }                                                                        Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
            df pg Jowftujhbujpot
Company Pleads Guilty to Misbranding Drug, Ordered To Pay $85 Million Fine
Scios, Inc., a subsidiary of Johnson & Johnson, Inc. Biopharmaceutical Group, pled guilty to causing the
introduction and delivery of a misbranded drug into interstate commerce. The company was ordered to
pay an $85 million ne and was placed on organizational probation for 3 years. A VA OIG, Food and
Drug Administration (FDA) Ofce of Criminal Investigations, Federal Bureau of Investigation (FBI), and
Defense Criminal Investigative Service (DCIS) investigation revealed that from August 2001 through
June 2005, the company marketed and sold the drug Natrecor for off-label use. The drug was only
approved by the FDA to treat acute heart failure, not chronic heart conditions. During the relevant period
of time, VA purchased over $5 million of Natrecor; however, records only conrmed off-label use totaling
approximately $100,000.

Five Veterans Arrested for Selling Heroin and Other Drugs at Bedford, Massachusetts, VAMC
Five Veterans were arrested for distributing and conspiracy to distribute controlled substances as the
result of an OIG, Drug Enforcement Administration (DEA), and VA Police Service investigation. The
defendants were charged with dealing drugs including heroin, oxycodone, Suboxone, and clonazepam at
the Bedford, MA, VAMC. In some of the cases, the defendants were selling drugs that had been provided
to them by the medical center. During the course of the investigation, an undercover OIG agent made
several controlled buys of drugs from the defendants.

Defendants Plead Guilty to Drug Trafcking Charges at Cleveland, Ohio, VAMC
Three defendants pled guilty to felony drug trafcking charges for selling heroin and VA prescription
medication at the Cleveland, OH, VAMC. Information was received that illicit drugs and VA prescription
medication were being sold on VA property to Veterans in drug treatment programs. An OIG and local
police investigation resulted in multiple controlled buys of heroin and prescription pain medication.

Former Bedford, Massachusetts, VAMC Employee Sentenced for Selling Cocaine to Veterans in
Treatment Program
A former Bedford, MA, VAMC employee, who supervised Veterans undergoing substance abuse
treatment at the medical center, was sentenced to 3 months’ connement in a halfway house and
3 months’ home connement after having previously pled guilty to distribution of controlled substances.
During an OIG, VA Police Service, and DEA investigation the employee sold cocaine to a cooperating
witness on three separate occasions while on VA property.

Veteran Sentenced and VA Employee’s Son Arrested for Drug Distribution
A Veteran was sentenced to 14 days’ incarceration and a $719 ne after pleading guilty to a drug sale.
A VA employee’s son was also arrested for conspiracy to distribute oxycodone in excess of 28 grams.
Both judicial actions stemmed from a 7-month OIG and local drug diversion task force investigation.
Operation Tango Vax focused on combating the sale and distribution of illicit and controlled prescription
pharmaceutical drugs at the West Palm Beach, FL, VAMC and the surrounding community. The
investigation determined that the majority of criminal activity occurred at the VAMC and resulted in the
seizure of over 6,000 oxycodone pills and $180,920.

Veteran Sentenced for Drug Distribution
A Veteran was sentenced to 4 months’ incarceration and 56 months’ probation following a change of plea
from not guilty to no contest. During a VA OIG, FBI, and local police investigation, the defendant sold
controlled pharmaceuticals to an undercover OIG agent on three separate occasions.




WB P g g j d f pg J o t q f d u ps H f of s b m
Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
                                                                                                        } 36
                                                                      df pg Jowftujhbujpot
Long Beach, California, VAMC Pharmacy Technician Charged with Drug Violations Over 15-Year
Period
A Long Beach, CA, VAMC pharmacy technician was charged with possession of a controlled substance
and obtaining controlled substances through fraud. An OIG investigation revealed that for approximately
15 years the defendant used fraudulent prescriptions to obtain more than 44,000 tablets of a controlled
substance.

Veteran and Asheville, North Carolina, VAMC Nurse Arrested for Prescription Fraud
A Veteran and an Asheville, NC, VAMC nurse were arrested for obtaining prescription drugs by fraud.
An OIG and local drug task force determined that while under the care of a VA physician, the Veteran
obtained pain medication from non-VA pharmacies using assumed names. On one occasion, the Veteran
posed as a VA physician and obtained pain medication for himself. The VA nurse assisted the Veteran
in the scheme by picking up pain medications at non-VA pharmacies, which were dispensed by means of
fraudulent prescriptions. A search of the nurse’s residence resulted in the seizure of crack cocaine and
various pill bottles.

Former Hines, Illinois, Consolidated Mail Outpatient Pharmacy Employee Sentenced for Drug Theft
A former contract employee at the Hines, IL, Consolidated Mail Outpatient Pharmacy (CMOP) was
sentenced to 15 months’ incarceration, 36 months’ supervised release, and ordered to pay $52,972 in
restitution to VA. An OIG investigation revealed that the defendant stole numerous vials of Viagra from
the CMOP to sell for personal gain.

Former Providence, Rhode Island, Nurse Sentenced for Drug Diversion
A former intensive care unit nurse at the Providence, RI, VAMC was sentenced to 24 months’
incarceration, 9 months’ probation, and ordered to pay $2,500 in restitution. The defendant previously
pled guilty to diversion of a controlled substance after an OIG and VA Police Service investigation
revealed that he diverted hydromorphone and falsied VA controlled substance records to conceal the
theft. The case was initiated after an internal VAMC analysis showed that the defendant had a high
frequency of Pyxis system overrides when compared to other nurses on the ward.

Former Martinsburg, West Virginia, VAMC Registered Nurse Sentenced for Drug Diversion
A former Martinsburg, WV, VAMC registered nurse was sentenced to 14 months’ incarceration,
12 months’ probation, and 120 hours’ community service after pleading guilty to obtaining oxycodone by
fraud. An OIG and VA Police Service investigation determined that on approximately 56 occasions the
defendant retrieved controlled medication from the facility’s automated medication dispensers using the
names of VA patients whose electronic medical records indicated they did not receive the medication.

Former Tucson, Arizona, CMOP Employee Sentenced for Drug Theft
A former Tucson, AZ, VA CMOP employee was sentenced to 18 months’ incarceration (suspended) and
18 months’ probation. An OIG investigation determined that the defendant stole over 500 Soma tablets
for personal use while working as a pharmacy technician.

Former Salisbury, North Carolina, VAMC Pharmacist Sentenced for Drug Diversion
A former Salisbury, NC, VAMC pharmacist was sentenced to 4 years’ probation and a $2,500 ne after
pleading guilty to acquisition or obtaining possession of a controlled substance by misrepresentation and
false statements. An OIG investigation determined that the defendant stole medication relinquished to the
pharmacy by patients checking into the VAMC for in-patient stays.



                                                                              WB P g g j d f pg J o t q f d u ps H f of s b m
37 }                                                                      Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
            df pg Jowftujhbujpot
Former Salem, Virginia, VAMC Nurse Sentenced for Drug Diversion
A former Salem, VA, VAMC registered nurse was sentenced to 30 days’ incarceration, 5 months’ home
connement, and 50 hours’ community service after pleading guilty to obtaining controlled substances by
fraud. As a special condition of her sentencing, the defendant was also prohibited from working in the
health care eld. An OIG investigation revealed that the defendant engaged in a variety of schemes in
order to obtain over 6,000 micrograms of fentanyl from VAMC OmniCell machines as well as patients.
The defendant admitted to using the narcotic while providing care to patients.

AmeriCorps Member Sentenced after Pleading Guilty to Burglary and Sexual Offense at Perry
Point, Maryland, VAMC
An AmeriCorps member, formerly residing in leased housing at the Perry Point, MD, VAMC, was
sentenced to 7 years’ incarceration (4 years suspended), 3 years’ supervised release, and ordered
to register as a tier one sex offender after pleading guilty to burglary and a sex offense. An OIG and
Maryland State Police investigation revealed that the defendant sexually assaulted a female AmeriCorps
member at her residence, located on the grounds of the medical center.

Columbia, South Carolina, VAMC Nurse’s Aide Pleads Guilty to Simple Assault
A Columbia, SC, VAMC nurse’s aide pled guilty to simple assault following his indictment and arrest for
fondling the genitals of an amputee patient. The victim was a resident in the VAMC’s nursing home. As
a condition of his plea, the defendant was barred from seeking future VA employment. The defendant
initially gave a sworn statement denying the charges. Following an OIG polygraph exam, the defendant
confessed to assaulting the patient.

Former New York, New York, VAMC Union President Arrested for Theft of $112,500 in Union Funds
A former New York, NY, VAMC employee and union president of an American Federation of Government
Employee’s local was arrested for theft of union funds while on Government property. An OIG and
Department of Labor (DOL), Ofce of Labor Management Standards, investigation revealed that the
defendant embezzled approximately $112,500 by writing 187 checks to himself from the union’s checking
account.

Fayetteville, North Carolina, VAMC Compensated Work Therapy Employee Arrested for Theft
A compensated work therapy employee, with an extensive criminal history, was arrested for theft after
an OIG, VA Police Service, and local police investigation revealed that he stole new, unused laptop
computers from the Fayetteville, NC, VAMC. At least six computers were pawned in the local area, and
three of those have been recovered. Nine stolen computers remain missing.

Compensated Work Therapy Workers Charged with Grand Larceny
Two Compensated Work Therapy workers were charged with grand larceny as a result of an OIG and
VA Police Service investigation which disclosed that they stole more than 20 cold weather modular
sleep systems and other winter gear from the VA’s Homeless Outreach Program. This specialized gear
was intended specically for homeless Veterans living in harsh cold weather conditions. One of the
defendants was also charged with obstruction of justice because he threatened the other defendant for
talking to investigators.

Seven Orlando, Florida, VAMC Employees and Volunteer Charged with Theft
Seven Orlando, FL, VAMC employees, to include a VA police ofcer, and an eighth individual who was
a volunteer, were charged with the exploitation of an elderly or disabled adult and grand theft. An OIG
and VA Police Service investigation revealed that the defendants solicited and received checks totaling


WB P g g j d f pg J o t q f d u ps H f of s b m
Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
                                                                                                      } 38
                                                                       df pg Jowftujhbujpot
$55,000 from a resident of the VAMC’s nursing home who suffers from dementia.

Former Reno, Nevada, Canteen Manager Indicted for Theft of Government Property
A former Reno, NV, VAMC canteen manager was indicted for theft of Government property. An OIG
investigation revealed that during an 18-month period the defendant stole $42,111 from 13 medical center
vending machines by under-reporting the vending machine sales in order to conceal the thefts. The
defendant admitted to using the stolen money to fund his gambling addiction.

Former Bath, New York, VAMC Nurse Pleads Guilty to Bank Theft
A former Bath, NY, VAMC nurse pled guilty to a criminal complaint charging her with bank theft. As a
condition of her plea, she agreed to pay full restitution of $7,375. An OIG investigation revealed that
the defendant used her position to gain access to the bank card and personal identication number of a
Veteran under her care and for over 3 months withdrew funds for her own personal use from the Veteran’s
bank account.

Three Jackson, Mississippi, VAMC Employees Sentenced for Theft of VA Property
Three Jackson, MS, VAMC facility maintenance workers were sentenced after pleading guilty to
embezzlement. The rst defendant was sentenced to 5 years’ probation and ordered to pay $608 in
restitution; the second defendant was sentenced to 5 years’ probation and ordered to pay $2,294 in
restitution; and the third defendant was sentenced to 6 months’ incarceration, 6 months’ probation, and
ordered to pay a $500 ne. An OIG and local police investigation determined that for over 18 months the
defendants stole VA property, including at panel televisions, commercial cleaning supplies, commercial
cleaning equipment, computer equipment, and other miscellaneous property from the VAMC. Judicial
action against a fourth employee is pending.

Veteran Sentenced for Credit Card Fraud
A Veteran, who was the leader of a conspiracy to commit access device fraud and aggravated identity
theft, was sentenced to 48 months’ incarceration, 3 years’ supervised release, and ordered to pay
restitution of $7,210. An OIG and VA Police Service investigation revealed that the defendant and two
accomplices were responsible for the thefts of numerous Palo Alto, CA, VAMC employees’ wallets. The
investigation also revealed that the Veteran and his accomplices used credit cards from those stolen
wallets to purchase thousands of dollars in gift cards, merchandise, and gas at local retail stores, with
the gift cards being re-sold in an illegal gift card scheme. The two accomplices previously pled guilty to
similar charges.

Eleven Veterans Indicted for Travel Benet Fraud Against Columbia, South Carolina, VAMC
Eleven Veterans were indicted for false, ctitious, or fraudulent claims and fraudulent acceptance of
payment after submitting numerous fraudulent travel vouchers for reimbursement. An OIG investigation
determined that all of the defendants claimed to reside in areas that were a greater distance from the
Columbia, SC, VAMC than they actually resided. The aggregate loss to VA is approximately $80,000.

Veteran Indicted for Travel Benet Fraud at Gainesville, FL, VAMC
A Veteran was indicted for theft of Government funds after an OIG investigation revealed that, from
February 2010 to July 2011, he led 234 fraudulent travel claims at the Gainesville, FL, VAMC. The
defendant claimed that he was traveling 152 miles round trip from St. Augustine, FL, when in reality he
was residing in the local area. The loss to VA is $14,333.




                                                                               WB P g g j d f pg J o t q f d u ps H f of s b m
39 }                                                                       Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
            df pg Jowftujhbujpot
Veteran Pleads Guilty to Theft of VA Travel Benets at Montrose, New York, VAMC
A Veteran pled guilty to theft of Government funds after an OIG investigation revealed that he used an
address where he was not residing in order to inate the mileage reimbursement paid by VA for his travel
to and from medical appointments at the Montrose, NY, VAMC. The loss to VA is $65,343.

Veteran Sentenced for Travel Benet Fraud
A Veteran was sentenced to 10 years’ hard labor (suspended) and 5 years’ supervised probation after
pleading guilty to felony theft. An OIG and VA Police Service investigation determined that the defendant
obtained a driver’s license and identication card containing false addresses, and from 2009 until 2011
used the false identications to submit 223 fraudulent beneciary travel vouchers to the Alexandria, LA,
VAMC. The loss to VA is $14,775.


Veterans Benets Administration Investigations
VBA administers a number of nancial benets programs for eligible Veterans and certain family
members, including VA guaranteed home loans, education, insurance, and monetary benets.
Investigations routinely concentrate on payments made to ineligible individuals. For example, a
beneciary may deliberately feign a medical disability to defraud the VA compensation program. With
respect to VA guaranteed home loans, OIG conducts investigations of loan origination fraud, equity
skimming, and criminal conduct related to management of foreclosed loans or properties. VA appoints
duciaries for Veterans in receipt of VA benets who are deemed incompetent and for minor children who
are receiving VA benets. OIG investigates allegations of fraud committed by these duciaries.

OIG’s Information Technology and Data Analysis Division, in coordination with the Ofce of Investigations,
conducts an ongoing proactive Death Match project to identify deceased beneciaries whose benets
continue because VA was not notied of the death. When indicators of fraud are discovered, the
matching results are transmitted to OIG investigative eld ofces for appropriate action. Since the
inception of the Death Match project in 2000, OIG has identied 16,660 possible cases with over
2,915 investigative cases opened. Investigations have resulted in the actual recovery of $59.2 million,
with an additional $20.9 million in anticipated recoveries. The 5-year projected cost savings to VA is
estimated at $142.2 million. To date, there have been 563 arrests on these cases with additional cases
awaiting judicial action.

In the area of monetary benets, OIG opened 225 investigations, made 97 arrests, and had a monetary
impact of over $5.2 million in nes, restitution, penalties, and civil judgments as well as more than
$12.8 million in savings, efciencies, cost avoidance, and recoveries during this reporting period. One-
hundred ninety-eight of these investigations involved the fraudulent receipt of VA monetary benets
including deceased payee, duciary, identity theft fraud, and beneciaries fraudulently receiving these
benets. These investigations resulted in criminal charges led against 35 defendants. OIG obtained
over $1.5 million in court ordered payment of nes, restitution, and penalties and also achieved an
additional $8.7 million in savings, efciencies, cost avoidance, and recoveries. OIG opened an additional
six “Stolen Valor” cases and arrested nine individuals. Convictions resulted in $591,462 in court ordered
payment of nes, restitution, and penalties, and OIG achieved an additional $867,208 in savings,
efciencies, cost avoidance, and recoveries. The following entries provide a representative sample of the
type of VBA investigations conducted during this reporting period.




WB P g g j d f pg J o t q f d u ps H f of s b m
Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
                                                                                                      } 3:
                                                                       df pg Jowftujhbujpot
Veteran Pleads Guilty to Theft of $900,000 in Benets Over 15 Years
A Veteran pled guilty to theft of Government funds after an OIG investigation determined that he
fraudulently received approximately $900,000 in VA compensation benets for approximately 15 years.
The defendant, who was treated by VA for numerous ailments, claimed to be wheelchair bound and
required the need of an aide. The defendant gave various fabricated accounts to neighbors, the media,
and VA staff on how his injury occurred, including being a U.S. Navy SEAL wounded during Operation
Desert Storm, being injured during hand-to-hand combat training, falling down steps, and being shot by
friendly re while at Ft. Bragg. The investigation also revealed that while the defendant reported to VA
that he was not ambulatory, he completed the North Carolina Basic Law Enforcement Training Program
and later held jobs as a police ofcer and a child protective services ofcer.

Foreign National Arrested for Identity Theft
A Cuban national was arrested at the Phoenix, AZ, VAMC after being indicted for aggravated identity
theft, false representation of a Social Security number, theft of Government property, and wire fraud. An
OIG investigation revealed that the defendant used the identity of a Veteran from Puerto Rico to obtain VA
compensation and medical care. The loss to VA is $414,745, which includes $251,321 in VBA benets
and $163,424 in medical benets.
Veteran Indicted for “Stolen Valor” Fraud
A Veteran was indicted for fraudulent use of a military discharge certicate, false writing, false claims
about receipt of military medals, mail fraud, and theft of Government funds. An OIG and DCIS
investigation revealed that the defendant submitted an additional DD-214 to VA and the DoD that was
fraudulently produced. The document falsely reected that the defendant had been awarded a Purple
Heart and a Combat Infantry Badge and that he had served 6 years in the U.S. Army. This additional
DD-214 allowed the defendant to qualify for VA compensation benets for post-traumatic stress disorder
(PTSD) and military retirement. The loss to VA is approximately $38,000, and the DoD retirement
overpayment is approximately $90,000.

Veteran Indicted for “Stolen Valor” Fraud
A Veteran was indicted for falsely claiming to have been awarded military medals and then using those
medals to support his VA claim for compensation. An OIG and FBI investigation revealed that the
defendant submitted a fraudulent DD-214 that reected the defendant was a U.S. Navy SEAL and had
been awarded a Purple Heart, Combat Action Ribbon, Joint Service Achievement Medal, and the Navy
and Marine Corps Achievement Medal. As a result of this investigation, VA re-evaluated the Veteran’s
PTSD claim and his service-connection compensation was reduced from $1,478 to $580 per month. The
loss to VA is $24,804.

Veteran Indicted for Making False Claim to VA
A Veteran was indicted for false statements and theft of Government funds after an OIG investigation
revealed that she sustained a severe medical injury while participating in a burglary when she was on
active duty. The defendant reported to medical personnel, the U.S. Army, and VA that the injury was
sustained by falling down stairs. Additionally, the defendant made false statements to VA and the U.S.
Army when applying for VA compensation benets and a military disability retirement. The approximate
loss to VA is $81,000.

Veteran Sentenced for Compensation Fraud
A Veteran was sentenced to 38 months’ incarceration, 24 months’ probation, and ordered to pay $161,418
in restitution to VA after an OIG investigation revealed that he provided false information to VA in support

                                                                               WB P g g j d f pg J o t q f d u ps H f of s b m
41 }                                                                       Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
            df pg Jowftujhbujpot
of his claim for disability compensation benets. Between 2003 and 2006, the defendant submitted VA
forms along with pictures attesting to his claims and later made statements to VA examiners that he
participated in combat activities while serving in the rst Gulf War and suffered from PTSD. The Veteran’s
false assertions included hand-to-hand combat in the trenches, killing enemy combatants, seeing fellow
soldiers die, seeing dead bodies inside burned-out tanks, and being under chemical attack. During the
same period, the Veteran asserted his military service and fraudulent combat activities to the local police
as a defense during subsequent court appearances on unrelated criminal and civil proceedings.

Former Togus, Maine, VAMC Employee Sentenced for Compensation Benets Fraud
A former Togus, ME, VAMC employee was sentenced to 18 months’ incarceration, 36 months’ supervised
release, and ordered to pay VA $47,229 in criminal restitution. An OIG investigation revealed that
the defendant manufactured a fraudulent document that VA relied upon as the basis for an award of
service-connected compensation benets for a back condition. When interviewed, the former employee
acknowledged creating the document that purported his involvement in a vehicle crash while running a
roadblock in a foreign country, which he claimed caused injuries to his back and ribs. The sentencing
included enhancements for obstruction after the judge agreed with the Government’s contention that the
defendant had manufactured another document in an attempt to exonerate himself from charges relating
to dependency benets fraud.

Veteran Sentenced for VA Compensation Fraud
A Veteran was sentenced to 5 months’ incarceration, 5 months’ home connement, 3 years’ supervised
probation, and ordered to pay restitution of $92,399 to VA. An OIG investigation revealed that the
defendant submitted several false statements to VA claiming that he was unable to work, resulting in the
receipt of VA individual unemployability benets. The investigation further determined that the Veteran
was gainfully employed since 2003.

Former Fiduciary Indicted for Embezzling from Father
A former duciary was indicted for defrauding VA by embezzling her father’s VA disability compensation.
The defendant acted as her father’s duciary from July 2007 until VA removed her in February 2009.
During this time period, she misappropriated approximately $58,000.

Fiduciary Indicted for Misappropriating $190,000 from Incompetent Veteran
A VA duciary was indicted for misappropriation by a duciary after an OIG investigation determined
that she diverted approximately $190,000 of her incompetent brother-in-law’s VA funds for her personal
use. The investigation determined that the defendant used the misappropriated funds to purchase a
BMW and to make unauthorized investments. Although the VA eld examiner reported that the Veteran
was well cared for and living in excellent conditions, the investigation determined that the Veteran was
being housed in a shed on the duciary’s property. The investigation continues into the submission of the
inaccurate eld examiner reports.

Veteran’s Daughter Pleads Guilty to Misappropriating Over $200,000
The daughter of a Veteran, who was also his duciary, pled guilty to misappropriation by a duciary and
conversion of Social Security benets. An OIG investigation disclosed that the defendant became the
Veteran’s duciary in 2005 and subsequently embezzled over $200,000 in VA compensation benets
and over $20,000 in Social Security benets. After initially claiming that a VA eld examiner told her that
she could spend the funds, the defendant admitted to OIG agents that she fraudulently spent the money
intended for her father.



WB P g g j d f pg J o t q f d u ps H f of s b m
Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
                                                                                                         } 42
                                                                          df pg Jowftujhbujpot
Veteran’s Daughter Pleads Guilty to Falsifying Business Records and Identity Theft
The daughter of a Veteran pled guilty to falsifying business records and identity theft after an OIG
investigation revealed that she submitted fraudulent employment records in order to secure a VA home
loan in her father’s name. The loan was subsequently approved based on the false records and the home
is now in foreclosure.

Veteran Indicted for VA Home Loan Guaranty Program Fraud
A Veteran was indicted for a felony charge of securing the execution of a document by deception. An
OIG investigation revealed that the Veteran fraudulently obtained a $232,000 residential loan through the
VA Home Loan Guaranty Program by presenting falsied tax documents that misrepresented his annual
income. The defendant subsequently defaulted on the loan, resulting in a loss to the Government of
$58,147.

Naval Ofcer Indicted for VA Home Loan Guaranty Fraud
An active duty naval ofcer was indicted for wire fraud after an OIG and Naval Criminal Investigative
Service (NCIS) investigation revealed that she applied for and received a VA Home Loan Guaranty based
on fraudulent income and asset documents that she provided to a bank to secure a home mortgage. The
defendant is currently serving 30 months’ incarceration in a U.S. Navy brig after being found guilty of
making misrepresentations concerning her education at the time of her enlistment.

Veteran Sentenced for VA Pension Fraud
A Veteran, who is also a leader in a white supremacist organization, was sentenced to 6 months’ home
connement, 2 years’ supervised probation, and ordered to pay restitution of $192,837 after pleading
guilty to false statements. The defendant was also given credit for time served towards 6 months’
incarceration. A joint investigation conducted by the OIG and the FBI revealed that the defendant
fraudulently received VA pension benets by failing to report other income to VA.

Veteran Sentenced for VA Pension Fraud
A Veteran was sentenced to 2 years’ probation, ned $500, and ordered to pay $6,969 in restitution after
pleading guilty to a criminal information that charged him with theft of Government property. An OIG
investigation revealed that the Veteran made a material false statement when he informed VA that he
had no income, despite earning signicant income in the scrap metal business. The Veteran admitted
to OIG agents that he was not entitled to the pension benets and that he knowingly submitted the false
statement about his income to avoid detection by VA. The loss to VA is over $100,000.

Veteran Sentenced for Theft of Government Funds
A Veteran was sentenced to 366 days’ incarceration and ordered to pay $101,686 in restitution after
pleading guilty to theft of Government funds and concealment of a material fact affecting Social Security
disability payments. A VA OIG and Social Security Administration (SSA) OIG investigation revealed that
the defendant fraudulently received VA individual unemployability and SSA benets by failing to report
employment income. The loss to VA is $72,921.

Veteran’s Girlfriend Pleads Guilty to Defrauding VA
The girlfriend of a Veteran pled guilty to misprision of a felony for her part in structuring a business in her
name in order to hide the Veteran’s income from VA. An OIG and local police investigation revealed that
the defendant and the Veteran operated a business for over 8 years while the Veteran received monthly
VA pension benets and co-pay exempt VA health care. In addition, the Veteran was previously charged
with illegal distribution of his VA prescribed narcotics. The loss to VA is $220,072, which includes


                                                                                  WB P g g j d f pg J o t q f d u ps H f of s b m
43 }                                                                          Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
            df pg Jowftujhbujpot
$127,888 in pension overpayments and $92,184 in disallowed medical benets. Criminal charges are
pending against the Veteran.

Veteran and Wife Indicted for Theft of Government Funds
A Veteran and his wife were indicted for theft of Government funds and for acting as principals in the
commission of an offense against the Government. An OIG investigation revealed that the Veteran, who
was receiving individual unemployability benets, owned and operated two separate automobile-related
businesses, while reporting to VA that he was unemployed and unable to work due to his disability.
The Veteran’s wife, who was also his VA duciary, provided documentation furthering his scheme of
convincing VA that he was unable to obtain or maintain substantial, gainful employment. The loss to VA
is approximately $107,000.

Wife of Deceased U.S. Navy Service Member Sentenced for VA Compensation Fraud
The wife of a deceased U.S. Navy service member was sentenced to 6 months’ incarceration, 6 months’
home connement, 3 years’ supervised release, and ordered to pay $115,759 in restitution after pleading
guilty to theft of Government funds. An NCIS investigation, supported by OIG, resulted in a previous guilty
plea by the defendant in 2008 to involuntary manslaughter related to her husband’s 1993 death. The
defendant was not entitled to VA benets because she was held responsible for her husband’s death.

Wife of Deceased Veteran Arrested for Theft of VA Benets
The wife of a deceased Veteran was arrested for theft in the rst degree. An OIG investigation revealed
that the defendant failed to notify VA of her husband’s death and subsequently stole VA benets that were
issued after his death in July 2007. The loss to VA is $206,284.

Son of Deceased Beneciary Charged with Theft of VA Benets
The son of a widow beneciary was charged with theft of Government funds. An OIG investigation
revealed that the defendant stole VA benets that were issued after his mother’s death in May 2005. The
loss to VA is $74,093.

Son of Deceased Beneciary Pleads Guilty to Theft of VA Benets
The son of a deceased beneciary pled guilty to theft of Government funds after an OIG investigation
revealed that he used his trustee position to steal VA funds that were direct deposited after his father’s
death in February 2003. The loss to VA is $103,866.

Son of Deceased Beneciary Pleads Guilty to Theft of VA Funds
The son of a deceased beneciary pled guilty to theft of Government funds. An OIG investigation
determined the defendant stole VA funds from a joint bank account after his mother’s death in September
2005. The defendant admitted to using the VA benets for personal expenses. The loss to VA is
$87,894.

Son of Deceased VA Beneciary Pleads Guilty to Theft of VA Funds
The son of a deceased VA beneciary pled guilty to theft of Government funds. An OIG investigation
revealed that the defendant failed to report to VA that his mother died in April 2006 and subsequently
used her ATM card to steal $59,548 in VA benets from her account.

Daughter of Deceased Beneciary Pleads Guilty to Theft of Government Funds
The daughter of a deceased VA beneciary pled guilty to theft of Government funds. An OIG investigation
revealed that the defendant stole VA funds that were direct deposited to a joint account subsequent to the
beneciary’s death in August 2005. The loss to VA is $79,192.

WB P g g j d f pg J o t q f d u ps H f of s b m
Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
                                                                                                             } 44
                                                                       df pg Jowftujhbujpot
Deceased Beneciary’s Daughter Sentenced for Theft of VA Benets
The daughter of a deceased VA beneciary was sentenced to 3 years’ probation, 100 hours’ community
service, and ordered to pay restitution of $129,000 after pleading guilty to theft of Government funds. An
OIG investigation revealed that between March 2001 and October 2009 the defendant failed to report the
beneciary’s death to VA and stole VA benet funds that were direct deposited to a joint account after her
mother’s death in February 2001.

Daughter of Deceased Veteran Sentenced for Theft of VA Funds
The daughter of a deceased Veteran was sentenced to 2 years’ probation and ordered to pay $69,368
in restitution after being found guilty at trial of larceny for stealing VA compensation benets. An OIG
investigation revealed that the defendant stole VA benet payments that were direct-deposited into a joint
account after her father’s death in November 2002.

Son of Deceased Beneciary Sentenced for Theft of VA Funds
The son of a deceased beneciary was sentenced to 13 months’ incarceration, 3 years’ probation,
and ordered to pay restitution of $67,505 after pleading guilty to theft of Government funds. An OIG
investigation revealed that the defendant stole VA funds from a joint account after his mother’s death in
March 2006.


Other Investigations
OIG investigates allegations of bribery and kickbacks, bid rigging and antitrust violations, false
claims submitted by contractors, and other fraud relating to VA procurement activities. In the area of
procurement practices, OIG opened 26 cases, made 8 arrests, and obtained nearly $21 million in nes,
restitution, penalties, and civil judgments.

OIG also investigates theft of IT equipment or data, network intrusions, and child pornography. In the
area of information management crimes, OIG opened two cases, made one arrest, and achieved $23,421
in savings, efciencies, cost avoidance, and recoveries.

Contractors Plead Guilty to Defrauding VA in Home Renovation Scheme
A former residential sales manager for a loan servicing company and a former contractor pled guilty
to wire fraud. The loan servicing company managed foreclosed properties under a VA contract and
hired construction companies to complete necessary repairs. The properties were then re-sold and
the company was reimbursed for repair expenses by VA. The defendants, who are brothers, engaged
in fraud by having the sales manager steer repair contracts to a company afliated with the contractor
in exchange for $14,000 in cash payments. The investigation resulted in the discovery of a separate
scheme involving another residential sales manager with the same loan servicing company and two
additional contractors who were indicted for conspiring to commit bribery and wire fraud. The contractors
paid the sales manager as much as $147,258 to steer repair work on VA-owned houses to companies
afliated with the contractors. The sales manager recruited other loan servicing company employees
into the scheme and paid them on behalf of himself and the other conspirators. One of these other sales
managers previously pled guilty to wire fraud for his role in the conspiracy.

Construction Company Owner, Son-In-Law Indicted for Fraud Involving Nearly $11 Million in
Contracts Intended for Veteran-Owned Businesses
The owner of a New Mexico construction company and his son-in-law were indicted for conspiracy, major
fraud, and false statements. An OIG investigation determined that the owner of the company paid his

                                                                               WB P g g j d f pg J o t q f d u ps H f of s b m
45 }                                                                       Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
            df pg Jowftujhbujpot
step-brother approximately $50,000 to use his status as a service-disabled Veteran in order to qualify
and obtain $10.9 million in VA SDVOSB contracts. The owner’s step-brother previously pled guilty to a
criminal information charging him with conspiracy, major fraud, and wire fraud.

Business Owner Indicted for Service-Disabled Veteran-Owned Small Business Fraud
A business owner was indicted for wire and major fraud after a case referral from the Government
Accountability Ofce resulted in the initiation of a multi-agency investigation conducted by the VA OIG,
Small Business Administration (SBA) OIG, U.S. Department of Agriculture (USDA) OIG, and U.S.
Army Criminal Investigations Division. The investigation determined the defendant used the status
of a legitimate service-disabled Veteran to fraudulently create a SDVOSB company. The defendant
subsequently created a joint venture by partnering his business with the SDVOSB to qualify and bid on
SDVOSB set-aside contracts. The defendant also forged the signature of the service-disabled Veteran
on VA contracts and other documents. The company received $1,085,207 in VA set-aside SDVOSB
contracts to which it was not entitled. The defendant also received three additional fraudulent SDVOSB
contracts from the U.S. Army, USDA, and the U.S. Coast Guard, totaling $1,761,625.

Fee-Basis Dentist Pleads Guilty to Wire Fraud
A former fee-basis dentist pled guilty to wire fraud after an OIG and FBI investigation revealed that
she fraudulently billed VA for dental treatment on homeless Veterans that was never performed. The
VA Palo Alto, CA, HCS authorized fee-basis dental treatment for 15 Veterans participating in the VA’s
Homeless Veterans Rehabilitation Program (HVRP) and the defendant billed VA for treatments that were
never performed on 12 of these HVRP Veterans. Also, the investigation revealed that the dentist had a
conscious sedation permit and was diverting narcotics from her practice for her personal use. The loss to
VA is $27,898.

Former Executives Sentenced for Medical Device Fraud
Three former Synthes Inc. executives were sentenced pursuant to a plea agreement charging them with
violation of the “responsible corporate ofcer” doctrine with the strict liability offense of introducing into
interstate commerce medical devices that were adulterated. Two of the defendants were sentenced to
9 months’ incarceration and 3 months’ supervised release while the third defendant was sentenced to
5 months’ incarceration and 7 months’ supervised release. Each defendant was also ordered to pay a
$100,000 ne. A fourth former Synthes Inc. executive was sentenced to 8 months’ incarceration,
4 months’ supervised release, and ordered to pay a $100,000 ne pursuant to a plea agreement charging
him with the same offense. A multi-agency investigation determined that all of the defendants were
involved in the unapproved trial of a bone-cement drug in which three patients died.

Company Nurse Sentenced for Making False Statements, VA Billed $2.6 Million as a Result
A nurse, who was formerly employed with a company that provided nursing home and home health care
services to various Government agencies, including VA, was sentenced to 4 months’ home connement,
3 years’ probation, and a $2,000 ne after pleading guilty to making false statements relating to health
care matters. A multi-agency investigation determined that the defendant, who was responsible for
performing periodic supervisory nursing visits to patients under her employer’s care, falsely certied that
visits were made. The defendant also misrepresented visit dates and forged the names of company
nurses on the supervisory visit forms. The visits were subsequently billed for payment by the defendant’s
employer. The loss to VA is approximately $2.6 million.




WB P g g j d f pg J o t q f d u ps H f of s b m
Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
                                                                                                          } 46
                                                                       df pg Jowftujhbujpot
Veteran Sentenced for Fraudulently Selling Certicates Bearing Forged U.S. Department or
Agency Seals
A Veteran pled guilty to fraudulently selling certicates bearing forged U.S. department or agency seals
and impersonating an ofcer or employee. Pursuant to the plea agreement, the defendant agreed to
serve 36 months’ incarceration, pay court ordered restitution to the victims, and abandon the property
seized by OIG during the execution of a search warrant at his business. A multi-agency investigation,
led by OIG, revealed that the defendant was operating an Internet printing business that sold counterfeit
military awards and training certicates from all branches of the military, as well as law enforcement
awards and training certicates. The fraud associated with this investigation is over $260,000.

Former Account Manager Sentenced for Fraud
A former account manager for a home health care company that provided services to individuals covered
by various health care programs, to include Medicaid and VA, was sentenced to 3 months’ home
connement, 2 years’ probation, and a $1,000 ne after pleading guilty to knowingly and willfully making
false statements relating to health care matters. A VA OIG, Health and Human Services (HHS) OIG, and
FBI investigation resulted in the defendant admitting to altering documents detailing the credentials of his
company’s employees to make them appear compliant with state licensing regulations during audits of the
employer’s operations.

Defendants Sentenced for Home Health Care Fraud
A former regional account manager for a home health care services company was sentenced to 5 months’
incarceration, 5 months’ home connement, 24 months’ probation, and ordered to pay a $10,000 ne.
The mother of a patient receiving services from the same home health care services company was also
sentenced to 5 months’ home connement, 36 months’ probation, and ordered to pay a $1,000 ne. In
addition, a recruiter formerly employed by the same company was sentenced to 24 months’ probation
and ordered to pay a $500 ne. The judicial actions are the result of a previous deferred prosecution
agreement resulting from a multi-agency investigation, which revealed various fraudulent activities related
to services the company claimed to provide to various recipients of Federal and state benets, including
those provided by VA.

Veteran and Two Others Arrested for Unlawfully Obtaining Narcotics
A Veteran, his spouse, and a nurse, who works in a physician’s ofce, were arrested for their part in
a scheme to unlawfully obtain narcotics through doctor shopping and misuse of a physician’s DEA
control number. An OIG, FBI, and HHS OIG investigation revealed that since 2008 the three defendants
fraudulently obtained more than 16,000 pills from local pharmacies and VA. This investigation is part of
Operation Pharm Team, which is being coordinated by the U.S. Attorney’s Ofce in Connecticut.

United Parcel Service Employee Indicted for Theft of VA Narcotics
A United Parcel Service employee was indicted for attempted possession with intent to distribute a
controlled substance. An OIG and DEA investigation determined that for over 8 months the defendant
stole Schedule II and III narcotics shipped from the Jackson, MS, VAMC and the Murfreesboro, TN,
CMOP.

Former United Parcel Service Employee Sentenced for Drug Theft
A former United Parcel Service employee was sentenced to 36 months’ incarceration and 3 years’
supervised release after pleading guilty to possession of controlled substances with intent to deliver. An
OIG and DEA investigation revealed that the defendant stole at least nine VA packages containing various
controlled narcotics that were shipped to Veterans from a VA medical facility.

                                                                               WB P g g j d f pg J o t q f d u ps H f of s b m
47 }                                                                       Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
            df pg Jowftujhbujpot
Former U.S. Postal Employee Sentenced for Drug Theft
A former U.S. Postal Service (USPS) employee was sentenced to 3 months’ home connement, 2 years’
probation, and 150 hours’ community service. A VA OIG and USPS OIG investigation determined that,
between July 2009 and April 2011, the defendant diverted approximately 17 shipments of VA prescribed
narcotics that were mailed to Veterans residing in the eastern Washington State area.

Former USPS Employee Sentenced for Stealing VA Narcotics
A former USPS employee was sentenced to 30 days’ incarceration for stealing VA narcotics. Additional
drug charges were deferred prosecution for 1 year. A VA OIG, USPS OIG, and local police investigation
used real time and videotaped surveillance, in addition to the defendant’s own statements, to determine
that he stole Vicodin shipped from a VA CMOP.


Administrative Investigations
OIG’s Administrative Investigations Division independently reviews allegations and conducts
administrative investigations generally concerning high-ranking senior ofcials and other high prole
matters of interest to the Congress and the Department. During this reporting period, OIG opened
15 and closed 18 administrative investigations. This work resulted in the issuance of 4 reports containing
18 recommendations for administrative or corrective action; 6 advisory memos with 14 suggestions for
corrective action; and 13 administrative memos. OIG also obtained $21,274 in dollar recoveries. The
Division investigated 38 allegations of which 22 were substantiated and 16 were not substantiated.

South Texas HCS Ofcial’s Hiring of Business Partner at VA a Conict of Interest, OIG
Investigation Shows
An administrative investigation substantiated that an employee of the South Texas Veterans HCS
engaged in a conict of interest when the employee approved the appointment of the employee’s private
business partner to a VA position and recommended the business partner for a $21,274 recruitment
incentive. In addition, the appointed employee misused ofcial VA time to conduct tasks for the private
business, and Title 38 full-time physicians at the Medical Center held a general misperception on the
proper use of leave.

Manager Interfered With Hiring Process, Then Failed To Tell the Truth About It
An administrative investigation found that an Ofce of Business Oversight (OBO) senior ofcial, as part of
a recruitment process, attempted to pressure a subordinate into making a false representation concerning
an interview score and the proper standing of a preferred job applicant. In addition, another OBO senior
ofcial failed to properly discharge his duties and responsibilities as a supervisor when he, after receiving
two separate complaints alleging serious misconduct, failed in both instances to investigate and take the
appropriate corrective action. Furthermore, both OBO senior ofcials failed to testify freely and honestly in
connection with the investigation.

VA Researchers in Waco, Texas, Worked for Texas A&M University on Government’s Time, Drew
Salaries from Both
An administrative investigation found that a Senior Ofcial at the VISN 17 Center of Excellence, Waco,
TX, misused ofcial time when she took and approved authorized absences for her subordinates to
conduct non-VA grant work for a non-VA entity during their VA duty hours, receiving remuneration from
the entity. The Senior Ofcial also created the appearance of preferential treatment when she loaned
$7,000 to a subordinate to cover monies not yet paid to the subordinate by the entity and engaged in a
conict of interest when she recommended approval for Joint Employment Agreements between VA and

WB P g g j d f pg J o t q f d u ps H f of s b m
Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
                                                                                                         } 48
                                                                         df pg Jowftujhbujpot
the entity. OIG further found that the Center of Excellence did not maintain time and attendance records
that accurately reected the time delegated to VA versus tasks associated with the entity during employee
tours of duty to alleviate improper salary supplementation.

Tampa Clinician Engaged in Conict of Interest, Referred VA Radiology Patients to Private
Business Associate
Another administrative investigation found that a medical center clinician at the James A. Haley Veterans’
Hospital, Tampa, FL, engaged in a conict of interest when the clinician referred VA patients to a VA
fee-for-service provider, while the clinician also had a private working relationship with the provider as the
owner of a private company. OIG also found that the clinician improperly accepted gifts from the provider,
misused VA time and resources to conduct tasks for the private business during the VA workday, and
improperly used VA time and resources to develop a smartphone application for personal gain. OIG
further found that the clinician failed to follow VA policy when the clinician sent VA patient radiology and
photograph images from a VA-assigned e-mail account to private e-mail accounts and accessed them on
non-VA issued equipment. Finally, OIG found that the clinician also violated VA policy when the clinician
asked other VA employees to log onto the VA network using the clinician’s username and password to
falsely reect that the clinician was at a VA duty station when the clinician was not.


Assaults and Threats Made Against VA Employees
During this reporting period, OIG initiated 19 criminal investigations resulting from assaults and threats
made against VA facilities and employees. Seventeen defendants were charged with related charges as
a result of the investigations. The following summaries provide representative samples of threats made
against VA facilities and employees.
   •	 A Veteran was arrested for sexual abuse in the rst degree after an OIG, VA Police Service, and
      local police investigation revealed that he sexually assaulted a VA registered nurse during an
      appointment at the Rochester, NY, VA outpatient clinic. When interviewed, the defendant admitted
      to placing the nurse’s hand on his genitals while the nurse was performing a blood draw at the
      phlebotomy clinic.
   •	 A Veteran was arrested by OIG agents for assaulting the Reno, NV, VAMC Chief of Police. The
      defendant, while intoxicated, became disruptive in the medical center waiting area, made threats
      toward his primary care physician, and intimidated staff and patients. The chief arrived on the
      scene, identied himself to the defendant and attempted to calm the situation. The defendant
      subsequently punched the chief in the face, causing injuries.
   •	 A Veteran pled guilty to assaulting a VA police ofcer at the Seattle, WA, VAMC. An OIG and VA
      Police Service investigation revealed that the Veteran checked into the emergency room (ER) and
      informed an ER nurse that he was having suicidal thoughts to include “suicide by cop.” When a
      VA police ofcer attempted to conduct a security screening, the defendant failed to comply with
      the ofcer’s instructions and assaulted the ofcer. During the struggle, the defendant was able to
      obtain the ofcer’s baton and attempted to take the ofcer’s weapon until subdued by the ofcer
      and other responders. The assault resulted in injuries to the ofcer.
   •	 A Veteran pled guilty to assault of a Federal employee with a dangerous weapon. An OIG and VA
      Police Service investigation revealed that while in the ER of the White River Junction, VT, VAMC,
      the defendant locked the door, then took a scalpel from a hospital cart and gained control of a
      nurse by holding the scalpel to her throat. VA Police ofcers were able to subdue the defendant
      and the nurse sustained no injuries.

                                                                                 WB P g g j d f pg J o t q f d u ps H f of s b m
49 }                                                                         Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
            df pg Jowftujhbujpot
     •	 A Veteran was sentenced to 40 months’ incarceration, 36 months’ supervised release, and ordered
        to pay restitution of $300,411 to VA for reimbursement of Ofce of Workers’ Compensation
        Program and other related costs. An OIG investigation revealed that the defendant physically
        assaulted two Spokane, WA, VAMC nurses during a visit to the ED. The assault resulted in
        serious bodily injury to both nurses.
     •	 A Veteran was arrested after threatening to come back “shooting” at the Asheville, NC, VAMC
        after being denied beneciary travel pay. An OIG investigation determined that approximately
        2 hours after making his threat the defendant purchased an M-4 assault rie and had the rie in
        his home, along with several other rearms, when interviewed by OIG agents and local police.
        The defendant was released pending further judicial action and is under the supervision of the
        probation department.
     •	 A Veteran was arrested for making terroristic threats to a call agent at the VA National Call Center,
        Phoenix, AZ. An OIG and local police investigation revealed that the defendant informed the call
        agent that he was going to go to the Atlanta, GA, VARO and shoot the rst 3,000 people he saw if
        he did not receive a permanent rating decision within 5 business days. A search of the defendant
        revealed a fully loaded 10mm handgun concealed in a shoulder holster with an additional
        magazine of bullets in his front pocket.
     •	 A former VA employee was arrested for violating a protective order and stalking. The defendant
        was charged in Federal court with sending communications to a current VA employee at work and
        was charged in state court with stalking the male employee outside of VA facilities. An OIG, VA
        Police Service, and local sheriff’s investigation revealed that the defendant, who worked for VA in
        2006, had never met the VA employee and stated that God had told her that the VA employee had
        to be with her.
     •	 A Veteran was found guilty at trial of threatening VA employees. An OIG investigation revealed
        that the defendant made a series of threatening phone calls to two Memphis, TN, VA vocational
        rehabilitation employees at their residences. Due to the violent nature of the offense, the judge
        remanded the defendant into custody until his sentencing.
     •	 A Veteran pled guilty to making threats against a Federal government ofcial and making false
        statements. An OIG investigation determined that from 2008 to 2011, the defendant provided a
        false address for his travel benet claims to the Hampton, VA, VAMC. The defendant reported that
        he traveled from North Carolina, while really travelling from Norfolk, VA. Following an interview of
        the subject and termination of excess travel reimbursement, the defendant threatened to assault
        the case agent. The loss to VA is approximately $8,000.
     •	 A Veteran initially charged with extortion pled guilty to an amended charge of disorderly conduct
        and was sentenced to 30 days’ incarceration (suspended), 30 days’ probation, and ordered to
        stay away from VA facilities unless on ofcial business. An OIG investigation revealed that the
        defendant sent a series of threatening correspondence to the Nashville, TN, VARO in an attempt
        to intimidate and coerce VA employees into processing his claim. The defendant’s criminal history
        included numerous weapon violations.
     •	 A Veteran was sentenced to 10 days’ incarceration and 1 year of probation after pleading guilty
        to threatening and intimidation. An OIG and local law enforcement investigation revealed that the
        defendant threatened his VA duciary and also threatened to go to the Phoenix, AZ, VARO and
        “Shoot everyone if the VA doesn’t give me my money.”
     •	 A Veteran was sentenced to 2 years’ probation after pleading guilty to disturbing the peace by
        electronic communication on Federal property. An OIG and VA Police Service investigation

WB P g g j d f pg J o t q f d u ps H f of s b m
Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
                                                                                                          } 4:
                                                                       df pg Jowftujhbujpot
       revealed that the defendant sent an e-mail, which threatened physical harm, to the director of the
       White River Junction, VT, VAMC. The defendant, a former medical center employee, previously
       sent numerous harassing e-mails to VA personnel, including one that caused a 6-hour facility
       shutdown in anticipation of his arrival.


Fugitive Felons Arrested with OIG Assistance
OIG continues to identify and apprehend fugitive Veterans and VA employees as a direct result of the
OIG Fugitive Felon Program. To date, 44.5 million felony warrants have been received from the National
Crime Information Center and participating states resulting in 58,270 investigative leads being referred
to law enforcement agencies. Over 2,239 fugitives have been apprehended as a direct result of these
leads. Since the inception of the OIG Fugitive Felon Program in 2002, OIG has identied $899.3 million
in estimated overpayments with an estimated cost avoidance of $1.03 billion. During this reporting period,
OIG opened 36 and closed 35 fugitive felon investigations. Investigative work resulted in the arrest of
25 fugitive felons, including 4 VA employees. Based on the information provided by OIG, at least
16 additional arrests were made by other law enforcement agencies. Apprehensions included the
following:
   •	 Local law enforcement ofcers arrested a Veteran at the Nashville, TN, VAMC with the assistance
      of OIG. The Veteran had outstanding felony warrants for possession of schedule II narcotics,
      possession of drug paraphernalia, criminal trespass, and failure to appear.
   •	 A VA employee was arrested at the Atlanta, GA, VAMC by local law enforcement ofcers with
      the assistance of OIG and VA Police Service. The fugitive was wanted on an outstanding felony
      warrant for a probation violation related to a previous conviction for armed robbery.




                                                                               WB P g g j d f pg J o t q f d u ps H f of s b m
51 }                                                                       Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
            df pg Nbobhfnfou boe Benjojtusbujpo
The Ofce of Management and Administration provides comprehensive support services that promote
organizational effectiveness and efciency through reliable and timely management and administrative
support, and through products and services that promote the overall mission and goals of OIG.


Operations Division
The Operations Division conducts follow-up reporting and tracking of OIG report recommendations;
provides strategic, operational, and performance planning; prepares and publishes OIG-wide reports,
such as the Semiannual Report to Congress; develops OIG policies and procedures; and electronically
distributes all OIG oversight reports. The Operations Division also promotes organizational effectiveness
and efciency by managing all OIG contracting and providing reliable, timely human resources
management, and related support services.


Information Technology and Data Analysis Division
IT staff promote organizational effectiveness and efciency by ensuring the accessibility, usability,
and security of information assets; developing, maintaining, and enhancing the enterprise database
application; facilitating reliable, secure, responsive, and cost-effective access to VA databases and e-mail
by all authorized employees; providing internet document management and control; and providing support
to all OIG components.

Data Analysis staff provide automated data processing technical support of OIG and other Federal and
governmental agencies requiring information from VA les. Data Analysis Division products facilitate the
identication of fraud-related activities and support OIG comprehensive initiatives that result in solutions
benecial to VA.


Administrative and Financial Operations Division
The Administrative and Financial Operations Division promotes OIG organizational effectiveness and
efciency by providing reliable and timely management and administrative support services such as
employee travel, credit card purchases, and property management.


Budget Division
The Budget Division promotes organizational effectiveness by providing a full complement of budgetary
formulation and execution services to management and organizational components, including formulation
of submissions and operating plans; monitoring allocations, expenditures, and reserves; conducting
nancial analyses; and developing internal budget policies.


Hotline Division
The Hotline Division is the focal point for contacts made to OIG, operating a toll-free telephone service
5 days a week, Monday through Friday, from 9:00 AM to 4:00 PM Eastern Time. OIG receives phone
calls, letters, and e-mails from employees, Veterans, the general public, Congress, the Government
Accountability Ofce, and other Federal agencies reporting issues of criminal activity, waste, abuse,
and mismanagement. During this reporting period, the Hotline received 14,103 contacts, 526 of which
became OIG cases. An additional 883 of the Hotline contacts became OIG non-case referrals. The

WB P g g j d f pg J o t q f d u ps H f of s b m
Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
                                                                                                            } 52
                                  df pg Nbobhfnfou boe Benjojtusbujpo
Hotline makes non-case referrals to the appropriate VA facility or ofce if the allegation does not rise to
the level of a case but appears to warrant some action on that facility’s or ofce’s part. The Hotline also
closed 550 cases during this reporting period, substantiating allegations 36 percent of the time. The
following cases were initiated as a direct result of Hotline contacts:

Review Prompts Increased Monitoring of Nursing Home Contracts at Iowa City, Iowa, VAHCS
A review conducted by the Iowa City, IA, VAHCS found numerous deciencies in the administration
of the facility’s community nursing home contracts. Problems included: (1) inadequate monitoring of
placed Veterans by VA nursing staff, (2) untimely renewal for 7 of 17 contracts, (3) improper placement
of Veterans into facilities that did not have a contract with VA, (4) maintaining relationships with poorly
rated facilities, (5) and decient medical documentation for placed Veterans. The facility initiated several
actions to address the identied deciencies, including reassigning staff and forming a new workgroup to
monitor the contracts and related program activities.

Lack of Medical Justications for Plastic Surgeries at Long Beach, California, VAHCS Prompts
Increased VISN Oversight
A review conducted by the VA Long Beach HCS, Long Beach, CA, which was initiated as the result
of a Hotline case, concluded that documentation for half of the plastic surgery procedures performed
at the facility between 2005 and 2011 (163 of 320) did not demonstrate that the purpose was clearly
reconstructive and medically necessary, as required. Despite the documentation gaps, the review did
not identify instances of “egregious misuse” of resources treating Veterans. The results of the review
prompted VISN-level leadership to implement higher-level reviews for plastic surgeries, improved
documentation methodologies, and 100 percent audits of plastic surgeries for 6 months.

Hotline Tip Reveals Veteran’s Income from Selling Drugs, Results in Terminated VA Pension and
Overpayment Collection
A Hotline tip from a law enforcement agency resulted in the retroactive suspension of a Veteran’s non-
service connected pension, which VA began paying to the Veteran in 1998. A review conducted by the
St. Paul, MN, VARO found that the Veteran failed to report to VA substantial, regular income from selling
illegal drugs. As a result, the VARO terminated the Veterans’ pension and began collecting $126,276 in
overpayments.

Veteran’s Failure to Disclose Income Results in 26-Year Overpayment
A review conducted by the Philadelphia, PA, VARO determined that a Veteran receiving a non-service
connected pension failed to report a source of income since 1986. As a result, the VARO terminated the
Veteran’s pension and initiated recovery of $104,858 in overpayments.

Review Finds Veteran Continued to Receive Unreduced Benets During Incarceration
A review conducted by the Muskogee, OK, VARO determined that a Veteran inappropriately received
unreduced VA benets while incarcerated between June 2008 and August 2011. In response to the
review, the VARO began collecting $82,558 in benet overpayments.

South Texas Veterans HCS Cancels Improper Retention Incentive for Physician
A review conducted by the South Texas Veterans HCS, San Antonio, TX, substantiated that the facility
improperly authorized retention incentive pay in 2010 and 2011 for a physician who agreed to work only a
minimum number of hours in another department experiencing a staff shortage. As a result of the review,
the facility cancelled the incentive pay and began collecting approximately $41,500 in unauthorized pay.



                                                                                WB P g g j d f pg J o t q f d u ps H f of s b m
53 }                                                                        Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
            df pg Dpousbdu Sfwjfx
The Ofce of Contract Review operates under a reimbursable agreement with VA’s Ofce of Acquisition,
Logistics and Construction (OALC) to provide preaward, postaward, and other requested reviews of
vendors’ proposals and contracts. In addition, OIG provides advisory services to OALC contracting
activities. OIG completed 50 reviews in this reporting period. The tables that follow provide an overview
of OIG performance during this reporting period.


Preaward Reviews
Preaward reviews provide information to assist VA contracting ofcers in negotiating fair and reasonable
contract prices and ensuring price reasonableness during the term of the contract. Preaward reviews
identied approximately $911 million in potential cost savings during this reporting period. In addition to
Federal Supply Schedule proposals, preaward reviews during this reporting period included seven health
care provider proposals—accounting for approximately $14.8 million of the identied potential savings.

                                               October 1, 2011 – March 31, 2012
                                   Preaward Reports Issued                    35
                                    Potential Cost Savings              $910,967,770


Postaward Reviews
Postaward reviews ensure vendors’ compliance with contract terms and conditions, including compliance
with the Veterans Health Care Act of 1992, P.L. 102-585, for pharmaceutical products. OIG reviews
resulted in VA recovering contract overcharges totaling over $3 million, including approximately
$1.5 million related to Veterans Health Care Act compliance with pricing requirements, recalculation of
Federal ceiling prices, and appropriate classication of pharmaceutical products. Postaward reviews
continue to play a critical role in the success of VA’s voluntary disclosure process. Of the 13 postaward
reviews performed, 4 involved voluntary disclosures. In two of the four reviews, OIG identied additional
funds due. OIG recovered 100 percent of recommended recoveries for postaward contract reviews.

                                               October 1, 2011 – March 31, 2012
                                  Postaward Reports Issued                    13
                                      Dollar Recoveries                   $3,136,820


Claim Reviews
OIG provides assistance to contracting ofcers when contractors have led claims against VA. The
objective of these reviews is to validate the basis of the claim and to determine that the claimed amount
is supported by accounting and other nancial records. During this period OIG reviewed two claims and
determined that $397,810 of claimed costs were unsupported and should be disallowed.

                                                 October 1, 2011 – March 31, 2012
                                      Claim Reports Issued                      2
                                      Potential Cost Savings                 $397,810




WB P g g j d f pg J o t q f d u ps H f of s b m
Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
                                                                                                        } 54
                                                                     dbou PJH Bdujwjujft

Congressional Testimony
Assistant Inspector General Belinda Finn Outlines Potential VA Budgetary Savings at House
Veterans’ Affairs Committee Hearing
Belinda J. Finn, Assistant Inspector General (AIG) for Audits and Evaluations, testied before the
Committee on Veterans’ Affairs, United States House of Representatives, on OIG work related to
recommendations made by the Veterans Service Organizations (VSOs) for budgetary savings.
Ms. Finn discussed OIG work in several areas raised by the VSOs including fee-basis care and VA’s
claims brokering system. She also discussed OIG work related to savings in VA management of the rural
health initiative, information technology contracts, and acquisition process. Ms. Finn was accompanied
by Ms. Linda Halliday and Ms. Sondra McCauley, Deputy Assistant Inspectors General for Audits and
Evaluations.

Open Market Purchases at VA Not a New Issue, Deputy AIG for Audits and Evaluations Tells
House Veterans’ Affairs Committee
Linda A. Halliday, Deputy AIG for Audits and Evaluations, testied before the Committee on Veterans’
Affairs, United States House of Representatives, on the scope and methodology of OIG’s ongoing reviews
of the VA’s administration of the Pharmaceutical Prime Vendor contract. She described OIG’s past
reporting on open market purchases over the last 12 years and OIG’s concerns that the Government was
not sufciently aggregating its buying power to obtain fair and reasonable prices. She was accompanied
by Mr. Michael Grivnovics, Director, Federal Supply Service Division, and Mr. Mark Myers, Director,
Healthcare Resources Division, in OIG’s Ofce of Contract Review.

Veteran-Owned Small Business Contracts Subject of House Committee on Oversight and
Government Reform Hearing
Belinda J. Finn testied before the Subcommittee on Technology, Information Policy, Intergovernmental
Relations, and Procurement Reform, Committee on Oversight and Government Reform, United States
House of Representatives, on OIG’s work related to VA’s Veteran-Owned Small Business (VOSB) and
SDVOSB programs. An OIG report, released in July 2011, found that 76 percent of the businesses
OIG reviewed were ineligible for the program and/or the specic VOSB or SDVOSB contract award,
potentially resulting in $2.5 billion awarded to ineligible businesses over the next 5 years. Ms. Finn
was accompanied by Mr. James J. O’Neill, AIG for Investigations, whose ofce’s work resulted in the
successful prosecution of the Chief Executive Ofcer of a business that had been awarded over
$16 million SDVOSB set-aside construction contracts for which the company was not eligible.

Deputy Assistant Inspector General Tells Senate Panel Homeless Veteran Program Lacks Safety,
Security, and Health Standards
Linda A. Halliday testied before the Committee on Veterans’ Affairs, United States Senate, on the results
of a recent OIG report, Audit of the Veterans Health Administration’s Homeless Providers Grant and
Per Diem Program. The report found a lack of program safety, security, privacy, and health and welfare
standards; an incomplete grant application evaluation process; and an inconsistent monitoring program
that impacted the program’s effectiveness. Ms. Halliday was accompanied by Mr. Gary Abe, Director of
OIG’s Seattle, WA, Ofce of Audits and Evaluations.




                                                                              WB P g g j d f pg J o t q f d u ps H f of s b m
55 }                                                                      Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
                                         dbou PJH Bdujwjujft

Special Recognition
OIG Employees Currently Serving on or Returning From Active Military Duty
Ben LaBuz was deployed by the U.S. Army in January 2012. He is currently stationed in Ft. Dix, NJ.

Ken Sardegna, an Auditor at OIG Headquarters, was deployed by the U.S. Army in June 2007 and is
currently stationed in Washington, D.C.

Deputy Inspector General Receives Presidential Rank Award of Meritorious Executive
Each year, the President recognizes and celebrates a small group of career Senior Executives with the
Presidential Rank Award. Recipients of this prestigious award are strong leaders who achieve results and
consistently demonstrate strength, integrity, industry, and a relentless commitment to excellence in public
service. Deputy Inspector General Richard Grifn was recognized with the Presidential Rank Award of
Meritorious Executive.




WB P g g j d f pg J o t q f d u ps H f of s b m
Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
                                                                                                       } 56
                              Bqqfoejy B; Mjtu pg PJH Sfqpsut Jttvfe

                               Table 1: List of Reports Issued by Type
                                       Ofce of Audits and Evaluations
                                           Audits and Evaluations
                                                        Funds Recommended for Better Use
         Report Title, Issue Date, and Number                             Agreed to by            Questioned Costs
                                                           by OIG
                                                                           Management
Review of Alleged Contract Irregularities in the
Ofce of Information and Technology                         $786,840            $786,840                  $1,651,215
10/13/2011 | 11-01708-02
Review of Alleged Mismanagement of Non-VA Fee
Care Funds at the Phoenix VA Health Care System
11/8/2011 | 11-02280-23
Audit of VA’s Consolidated Financial Statements
for Fiscal Years 2011 and 2010
11/10/2011 | 11-00343-26
Audit of Retention Incentives for Veterans Health
Administration and VA Central Ofce Employees                                                             $1,061,000
11/14/2011 | 10-02887-30
Audit of VHA's Veterans Integrated System
Network Contracts                                         $2,948,968         $2,948,968
12/1/2011 | 10-01767-27
Review of VA's Secure VA-Chief Information
Security Ofcer Support Services Acquisition
Process
12/20/2011 | 11-01508-24
Review of Alleged Mismanagement of Systems to
Drive Performance Project
2/13/2012 | 11-02467-87
Audit of VA’s Internal Controls Over the Use of
Disability Benets Questionnaires
2/23/2012 | 11-00733-95
Audit of the VA's Enhanced-Use Lease Program
2/29/2012 | 11-00002-74
Audit of VHA Acquisition and Management of
Prosthetic Limbs                                          $8,607,540         $8,607,540                   $2,151,885
3/8/2012 | 11-02254-102
Audit of VHA's Homeless Providers Grant and Per
Diem Program
3/12/2012 | 11-00334-115
Review of VA’s Compliance with the Improper
Payments Elimination and Recovery Act (IPERA)
3/14/2012 | 12-00849-120




                                                                               WB P g g j d f pg J o t q f d u ps H f of s b m
57 }                                                                       Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
Bqqfoejy B; Mjtu pg PJH Sfqpsut Jttvfe

                                              Ofce of Audits and Evaluations
                                                  Audits and Evaluations
                                                               Funds Recommended for Better Use
                Report Title, Issue Date, and Number                             Agreed to by     Questioned Costs
                                                                  by OIG
                                                                                  Management
 Independent Review of VA's FY 2011 Performance
 Summary Report to ONDCP
 3/22/2012 | 12-01072-121
 Independent Review of VA’s FY11 Detailed
 Accounting Summary Report to the ONDCP
 3/22/2012 | 12-01071-122
 Audit of VHA's Financial Management and Fiscal
 Controls for Veterans Integrated Service Network
 Ofces
 3/27/2012 | 10-02888-128
 Audit of VHA’s Management Control Structures for
 Veterans Integrated Service Network Ofces
 3/27/2012 | 10-02888-129
 Audit of VHA’s Prosthetics Supply Inventory
 Management                                                     $35,500,000       $35,500,000
 3/30/2012 | 11-00312-127
 Total Monetary Impact                                          $47,843,348       $47,843,348         $4,864,100

                                   Ofce of Audits and Evaluations
                                          Benets Inspections
 VA Regional Ofce Fort Harrison, Montana
 11/3/2011 | 11-03211-12
 VA Regional Ofce, Manchester, New Hampshire
 11/22/2011 | 11-03384-31
 VA Regional Ofce, Indianapolis, Indiana
 11/29/2011 | 11-03134-32
 VA Regional Ofce Providence, Rhode Island
 1/3/2012 | 11-03465-58
 VA Regional Ofce, White River Junction, Vermont
 1/17/2012 | 11-00518-54
 VA Regional Ofce, Fargo, North Dakota
 1/25/2012 | 11-03724-73
 VA Regional Ofce, Montgomery, Alabama
 2/1/2012 | 11-04432-77
 VA Regional Ofce, St. Petersburg, Florida
 2/8/2012 | 11-04243-86
 VA Regional Ofce, Pittsburgh, Pennsylvania
 2/27/2012 | 11-04216-103


WB P g g j d f pg J o t q f d u ps H f of s b m
Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
                                                                                                               } 58
                            Bqqfoejy B; Mjtu pg PJH Sfqpsut Jttvfe

                                  Ofce of Audits and Evaluations
                                       Benets Inspections
VA Regional Ofce, Manila, Philippines
3/1/2012 | 12-00156-110
VA Regional Ofce, Honolulu, Hawaii
3/26/2012 | 12-00151-123

                                  Ofce of Healthcare Inspections
                              Combined Assessment Program Reviews
San Francisco VA Medical Center, San Francisco, California
10/14/2011 | 11-02089-05
Orlando VA Medical Center, Orlando, Florida
10/17/2011 | 11-02084-01
VA Butler Healthcare, Butler, Pennsylvania
10/19/2011 | 11-02083-06
Veterans Health Care System of the Ozarks, Fayetteville, Arkansas
10/26/2011 | 11-02085-10
Fayetteville VA Medical Center, Fayetteville, North Carolina
10/27/2011 | 11-02081-09
VA Central Iowa Health Care System, Des Moines, Iowa
11/17/2011 | 11-02086-28
Edith Nourse Rogers Memorial Veterans Hospital, Bedford, Massachusetts
12/6/2011 | 11-02712-37
William S. Middleton Memorial Veterans Hospital, Madison, Wisconsin
12/7/2011 | 11-02713-43
Robert J. Dole VA Medical Center, Wichita, Kansas
12/8/2011 | 11-02716-42
Charles George VA Medical Center, Asheville, North Carolina
12/22/2011 | 11-02721-47
VA San Diego Healthcare System, San Diego, California
1/6/2012 | 11-03658-64
Hampton VA Medical Center, Hampton, Virginia
1/11/2012 | 11-02718-50
Grand Junction VA Medical Center, Grand Junction, Colorado
1/12/2012 | 11-03657-62
Memphis VA Medical Center, Memphis, Tennessee
1/19/2012 | 11-03654-66
VA Black Hills Health Care System, Fort Meade, South Dakota
1/31/2012 | 11-03661-76
Cincinnati VA Medical Center, Cincinnati, Ohio
2/13/2012 | 11-03666-79
VA Illiana Health Care System, Danville, Illinois
2/14/2012 | 11-03665-78

                                                                         WB P g g j d f pg J o t q f d u ps H f of s b m
59 }                                                                Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
Bqqfoejy B; Mjtu pg PJH Sfqpsut Jttvfe

                                 Ofce of Healthcare Inspections
                             Combined Assessment Program Reviews
 Samuel S. Stratton VA Medical Center, Albany, New York
 2/16/2012 | 11-03664-88
 VA Hudson Valley Health Care System, Montrose, New York
 2/17/2012 | 11-03656-89
 West Palm Beach VA Medical Center, West Palm Beach, Florida
 2/21/2012 | 11-03669-97
 VA Gulf Coast Veterans Health Care System, Biloxi, Mississippi
 2/29/2012 | 11-03668-107
 VA Roseburg Healthcare System, Roseburg, Oregon
 3/13/2012 | 11-03667-108
 Central Alabama Veterans Health Care System, Montgomery, Alabama
 3/14/2012 | 11-03663-111
 VA Ann Arbor Healthcare System, Ann Arbor, Michigan
 3/15/2012 | 11-03660-114

                                       Ofce of Healthcare Inspections
                               Community Based Outpatient Clinic Reviews
 Bennington, VT, and Littleton, NH; Jamestown and Lackawanna, NY; Hagerstown, MD, and Petersburg,
 WV
 11/1/2011 | 11-01406-14
 Gillette and Powell, WY; Pueblo, CO; Anaheim and Laguna Hills, CA; Escondido and Oceanside, CA;
 Lancaster and Sepulveda, CA
 11/2/2011 | 11-01406-13
 Ft. Pierce and Okeechobee, FL; Charleston and Williamson, WV; Manseld and New Philadelphia, OH;
 Agana Heights, GU, and Hilo, HI
 12/9/2011 | 11-01406-38
 Montrose, CO; Bellevue, Lincoln, and Norfolk, NE
 1/18/2012 | 11-03653-67
 Catskill, Clifton Park, Glens Falls, and Schenectady, NY
 2/17/2012 | 11-03653-71
 Chico, McClellan, and Oakland, CA
 3/12/2012 | 11-03653-105
 Framingham, New Bedford, and Springeld, MA; Elmira, NY
 3/12/2012 | 11-03655-109
 Florence, Rock Hill, and Sumter (Sumter County), SC
 3/16/2012 | 11-03653-104
 Durango, CO; Raton and Silver City, NM; Odessa, TX
 3/16/2012 | 11-03653-106
 Pensacola (Joint Ambulatory Care Center), FL; New Braunfels, San Antonio (North Central Federal
 Clinic), and Victoria, TX
 3/19/2012 | 11-03653-112


WB P g g j d f pg J o t q f d u ps H f of s b m
Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
                                                                                              } 5:
                            Bqqfoejy B; Mjtu pg PJH Sfqpsut Jttvfe

                                    Ofce of Healthcare Inspections
                                    National Healthcare Inspections
Management of Multidrug-Resistant Organisms in Veterans Health Administration Facilities
10/14-2011 | 11-02870-04
Informed Consent and Prevention of Disease Progression in Veterans with Chronic Kidney Disease
12/19/2011 | 10-03399-51
Prosthetic Limb Care in VA Facilities
3/8/2012 | 11-02138-116

                                    Ofce of Healthcare Inspections
                                    Hotline Healthcare Inspections
Alleged Quality of Care Issues in the Electroconvulsive Therapy Program, VA Boston Healthcare
System, Boston, Massachusetts
10/24/2011 | 10-03535-11
Alleged Telemetry Unit Deciencies, VA New York Harbor Health Care System, New York, New York
10/27/2011 | 11-02545-15
Emergency Department Quality of Care, Safety, and Management Issues, Dallas VA Medical Center,
Dallas, Texas
12/1/2011 | 11-02051-39
Alleged Quality of Resident Care Issues, Northport VA Medical Center, Northport, New York
12/2/2011 | 11-01437-41
Delay in Cancer Diagnosis and Treatment at a Southern Arizona VA Health Care System Community
Based Outpatient Clinic
12/5/2011 | 11-03545-40
Alleged Delay in Diagnosis and Treatment at a Community Based Outpatient Clinic, Nashville and
Murfreesboro, TN
12/15/2011 | 11-02828-52
Review of Referral and Consultation Processes in VISN 20 and Southern Oregon Rehabilitation Center
and Clinics at White City, OR
12/20/2011 | 11-01209-53
Management of Emergency Calls Primary Care Call Center, VA San Diego Healthcare System, San
Diego, California
12/21/2011 | 11-03074-57
Follow-Up Prosthetic and Sensory Aids Service Records Review Durham VA Medical Center, Durham,
North Carolina
12/22/2011 | 11-01416-56
Oversight Review of Quality of Care Issues Edward Hines, Jr. VA Hospital Hines, Illinois
1/5/2012 | 11-03921-63
Select Patient Care Delays and Reusable Medical Equipment Review Central Texas Veterans Health
Care System Temple, Texas
1/6/2012 | 11-03941-61
Oversight Review of Anesthesia and Management Issues, Sacramento VA Medical Center, Mather,
California
1/9/2012 | 11-02238-65

                                                                          WB P g g j d f pg J o t q f d u ps H f of s b m
61 }                                                                  Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
Bqqfoejy B; Mjtu pg PJH Sfqpsut Jttvfe

                                     Ofce of Healthcare Inspections
                                     Hotline Healthcare Inspections
 Discharge, Travel, and Treatment Issues, Harry S. Truman Memorial Veterans’ Hospital, Columbia,
 Missouri
 1/20/2012 | 11-04228-72
 Alleged Mismanagement of Care and Delayed Adverse Event Reporting, Robert J. Dole VA Medical
 Center Wichita, Kansas
 2/9/2012 | 11-02826-94
 Follow-Up Evaluation of Infection Control Deciencies in the Dental Clinic, Dayton VA Medical Center,
 Dayton, OH
 2/14/2012 | 10-03330-91
 Alleged Quality of Care and Stafng Issues VA Western New York Healthcare System, Buffalo, New
 York
 2/16/2012 | 11-02637-90
 Quality of Care Issues Edward Hines, Jr. VA Hospital
 3/8/2012 | 11-01485-117
 Use of Restraints Salem VA Medical Center Salem, Virginia
 3/20/2012 | 12-00221-125
 Alleged Mental Health Access and Treatment Issues at a VA Medical Center
 3/21/2012 | 11-03021-133
 Alleged Quality of Care Issues in the Emergency Department, Northport VA Medical Center, Northport,
 NY
 3/27/2012 | 12-00999-135
 Alleged Failure to Obtain Informed Consent and Provide Appropriate Dental Care Minneapolis VAHCS,
 Minneapolis, MN
 3/28/2012 | 11-04564-140

                                        Ofce of Investigations
                                     Administrative Investigations
 Conict of Interest and Misuse of Leave, South Texas Veterans Health Care System, San Antonio,
 Texas
 10/18/2011 | 10-02814-08
 Abuse of Authority, Prohibited Personnel Practices, Failure to Properly Supervise, and a Lack of Candor,
 Ofce of Business Oversight, VA Central Ofce
 12/12/2011 | 11-02258-46
 Improper Time and Attendance and Preferential Treatment, Center of Excellence, VISN 17, Waco,
 Texas
 2/3/2012 | 10-03822-80
 Conict of Interest, Misuse of Resources, Gratuities, and Failure to Follow Policy, James A. Haley
 Veterans’ Hospital, Tampa, Florida
 2/3/2012 | 11-00561-81




WB P g g j d f pg J o t q f d u ps H f of s b m
Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
                                                                                                      } 62
                           Bqqfoejy B; Mjtu pg PJH Sfqpsut Jttvfe

                                    Ofce of Contract Review
                                       Preaward Reviews
                                                                                          Savings and Cost
                        Report Title, Issue Date, and Number
                                                                                             Avoidance
Review of Proposal Submitted Under Solicitation Number VA-250-10-RP-0049                        $411,372
10/4/2011 | 11-03375-03
Review of Proposal Submitted Under Solicitation Number VA-248-10-RP-0464                          $2,796,501
10/21/2011 | 11-03568-07
Review of FSS Proposal Submitted Under Solicitation Number M5-Q50A-04-R2                      $103,616,505
10/27/2011 | 11-04080-16
Review of FSS Proposal Submitted Under Solicitation Number RFP-797-FSS-99-                      $10,446,401
0025-R6
10/27/2011 | 11-03612-17
Review of Contract Extension Proposal Submitted Under a FSS Contract                                     $3,371
10/27/2011 | 11-03936-18
Review of FSS Proposal Submited Under Solicitation Number M5-Q50A-03-R2                                         $0
10/28/2011 | 11-03191-19
Review of FSS Proposal Submitted Under Solicitation Number 797-FSS-99-0025-R6                     $4,204,350
10/31/2011 | 11-02202-20
Review of FSS Proposal Submitted Under Solicitation Number M5-Q50A-03-R2                                 $3,703
10/31/2011 | 11-03860-21
Review of FSS Proposal Submited Under Solicitation Number M5-Q50A-03-R4                                         $0
11/8/2011 | 11-03425-25
Review of Proposal Submitted Under Solicitation Number VA-250-10-RP-0070                          $1,751,076
11/9/2011 | 11-04196-22
Review of FSS Proposal Submitted Under Solicitation Number M5-Q50A-03-R4                                        $0
11/9/2011 | 11-03640-29
Review of FSS Proposal Submitted Under Solicitation Number M5-Q50A-03-R2                                        $0
11/10/2011 11-03190-33
Review of FSS Proposal Submitted Under Solicitation Number M5-Q50A-03-R2                                        $0
11/10/2011 | 11-03617-34
Review of FSS Proposal Submitted Under Solicitation Number M5-Q50A-03-R2                                        $0
11/16/2011 | 11-03763-36
Review of Contract Extension Proposal Submitted Under Solicitation Number M5-                 $702,051,174
Q50A-03-R4
11/29/2011 | 11-03448-35
Review of FSS Proposal Submitted Under Solicitation Number RFP-797-FSS-99-                      $42,928,388
0025-R6
12/9/2011 | 11-03318-49
Review of FSS Proposal Submitted Under Solicitation Number RFP-797-FSS-99-                                      $0
0025-R6
12/15/2011 | 11-03973-55
Review of Proposal Submitted Under Solicitation Number VA-258-11-RP-0097                          $3,852,929
12/29/2011 | 12-00476-59

                                                                       WB P g g j d f pg J o t q f d u ps H f of s b m
63 }                                                               Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
Bqqfoejy B; Mjtu pg PJH Sfqpsut Jttvfe

                                                          Ofce of Contract Review
                                                             Preaward Reviews
                                                                                     Savings and Cost
                                              Report Title, Issue Date, and Number
                                                                                        Avoidance
 Review of Proposal Submitted Under Solicitation Number VA-247-11-RP-0121                  $187,541
 12/29/2011 | 12-00477-60
 Review of FSS Proposal Submitted Under Solicitation Number M5-Q50A-03-R4                         $0
 1/5/2012 | 11-04468-68
 Review of FSS Proposal Submitted Under Solicitation Number M5-Q50A-03-R4                         $0
 1/10/2012 | 11-04316-69
 Review of FSS Proposal Submitted Under Solicitation Number M5-Q50A-03-R4                         $0
 1/12/2012 | 11-04469-70
 Review of Proposal Submitted Under Solicitation Number VA-101-10-RP-0142                   $14,080
 1/31/2012 | 12-00730-82
 Review of Proposal Submitted Under Solicitation Number VA-101-10-RP-0142                      $469
 1/31/2012 | 12-00734-83
 Review of FSS Proposal Submitted Under Solicitation Number 797-FSS-99-0025-R7           $1,821,542
 1/31/2012 | 12-00117-84
 Review of FSS Proposal Submitted Under Solicitation Number M5-Q50A-03-R4                $2,566,492
 2/2/2012 | 11-04390-85
 Review of FSS Proposal Submitted Under Solicitation Number M5-Q50A-03-R4                         $0
 2/13/2012 | 12-00196-96
 Review of Proposal Submitted Under Solicitation Number VA-101-10-RP-0142                  $327,499
 2/13/2012 | 12-00694-98
 Review of FSS Proposal Submitted Under Solicitation Number 797-FSS-99-0025-R7           $2,111,860
 2/15/2012 | 12-00796-99
 Review of FSS Proposal Submitted Under Solicitation Number RFP-797-FSS-99-             $14,700,000
 0025-R7
 2/15/2012 | 12-00654-101
 Review of FSS Proposal Submitted Under Solicitation Number RFP-797-FSS-99-                $293,149
 0025-R6
 3/5/2012 | 11-03616-118
 Review of FSS Proposal Submitted Under Solicitation Number RFP-797-FSS-99-              $8,348,716
 0025-R7
 3/6/2012 | 12-00798-119
 Review of FSS Proposal Submitted Under Solicitation Number 797-652C-04-0001-R1          $2,736,020
 3/22/2012 | 11-04184-139
 Review of Proposal Submitted Under Solicitation Number VA-243-10-RP-0436                $1,000,993
 3/29/2012 | 12-01627-145
 Review of Proposal Submitted Under Solicitation Number VA-248-11-RP-0508                $4,793,639
 3/29/2012 | 12-01812-150
 Total Monetary Impact                                                                 $910,967,770



WB P g g j d f pg J o t q f d u ps H f of s b m
Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
                                                                                                  } 64
                            Bqqfoejy B; Mjtu pg PJH Sfqpsut Jttvfe

                                         Ofce of Contract Review
                                             Postaward Reviews
                           Report Title, Issue Date, and Number                             Dollar Recoveries
Review of Compliance with Public Law 102-585 Section 603 Under a FSS Contract                    $1,319,720
12/5/2011 | 10-00289-44
Review of Voluntary Disclosure Submitted Under a FSS Contract                                            $33,460
12/7/2011 | 10-03167-45
Review of Voluntary Disclosure Submitted Under a FSS Contract                                          $264,235
12/9/2011 | 11-03319-48
Review of a VA Contract                                                                             $1,339,657
2/15/2012 | 11-00782-100
Review of Overcharges for Late Additions of Covered Drugs Under a FSS Contract                             $8,119
2/22/2012 | 12-00080-92
Review of Compliance with Public Law 102-585 Section 603 Under a FSS Contract                              $2,346
3/1/2012 | 12-01220-113
Review of a Late Addition of a Covered Drug Under a FSS Interim Agreement                                         $0
3/21/2012 | 12-01415-131
Review of a Product Addition Under a FSS Contract                                                                 $0
3/21/2012 | 11-03835-134
Review of Public Law Pricing Errors Under a FSS Contract                                                 $15,053
3/22/2012 | 10-01772-136
Review of a Voluntary Disclosure of a Drug Pricing Error Under a FSS Contract                              $7,340
3/22/2012 | 12-01521-137
Review of Compliance with Public Law 102-585 Section 603 Under a FSS Contract                          $145,432
3/27/2012 | 10-01769-143
Review of Public Law Pricing Issues Under a FSS Contract                                                      $244
3/27/2012 | 11-03834-144
Review of Overcharges Due to a Late Addition of a Covered Drug Under a FSS                                 $1,213
Contract
3/29/2012 | 12-00082-149
Total Monetary Impact                                                                               $3,136,820

                                     Ofce of Contract Review
                                          Claim Reviews
                                                                                            Savings and Cost
                         Report Title, Issue Date, and Number
                                                                                               Avoidance
Review of Settlement Proposal on a Task Order                                                     $195,316
2/9/2012 | 11-03505-93
Review of Proposed Claim Submitted Under a VA Contract                                                 $202,494
3/19/2012 | 12-00511-126
Total Monetary Impact                                                                                  $397,810




                                                                         WB P g g j d f pg J o t q f d u ps H f of s b m
65 }                                                                 Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
Bqqfoejy B; Mjtu pg PJH Sfqpsut Jttvfe
                  Table 2: Total Potential Monetary Benets of Reports Issued
                                           Funds                      Savings
                                                       Questioned                    Dollar
             Report Type              Recommended                     and Cost
                                                         Costs                     Recoveries
                                       for Better Use                Avoidance
 Audits and Reviews                     $47,843,348    $4,864,100        N/A          N/A
 Preaward Reviews                           N/A            N/A      $910,967,770      N/A
 Postaward Reviews                          N/A            N/A           N/A       $3,136,820
 Claim Reviews                              N/A            N/A        $397,810        N/A
 Total                                  $47,843,348    $4,864,100 $911,365,580     $3,136,820




WB P g g j d f pg J o t q f d u ps H f of s b m
Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
                                                                                           } 66
        Bqqfoejy C; Tubuvt pg PJH Sfqpsut Vojnqmfnfoufe gps Pwfs 2 Zfbs

The Federal Acquisition Streamlining Act of 1994, P.L. 103-355, requires Federal agencies to complete
nal action on each OIG report recommendation within 1 year after the report is nalized. OIG is required
to identify unimplemented recommendations in its Semiannual Report to Congress until the nal action
is completed. Table 1 summarizes the status of all unimplemented OIG reports and recommendations.
Results are sorted by the action ofce responsible for implementation. Additionally, Table 2 identies
each OIG report and recommendation open for more than 1 year.

As of March 31, 2012, there are 156 total open reports and 1,037 total open recommendations. Thirty-
four of these reports and 79 of these recommendations remain unimplemented for over 1 year. Table
1 lists all unimplemented OIG reports and recommendations by action ofce. Some reports and
recommendations are counted more than once because they have actions at more than one ofce. Of
the reports open less than 1 year, 7 reports and 11 recommendations have actions at two or more ofces.
Of the reports open more than 1 year, one report and four recommendations have actions at two ofces.
Table 2 identies the reports and recommendations that remain unimplemented for over 1 year.

         Table 1: Number of Unimplemented OIG Reports and Recommendations by Ofce



                                                                                     Total Reports Open
                                                                 Reports Open More




                                                                                                                                               Recommendations
                                             Reports Open Less




                                                                                                           Recommendations



                                                                                                                             Recommendations
                                                                                                                              Open More Than
                                                                                                            Open Less Than
                                                Than 1 Year



                                                                   Than 1 Year




                                                                                                                1 Year



                                                                                                                                  1 Year



                                                                                                                                                    Open
                                                                                                                                                    Total
Veterans Health Administration                 104                   16              120                       855                35               890

Veterans Benets Administration                  14                    6              20                        68                13                81

Ofce of Management                                3                   0                 3                       9                 0                 9

Ofce of Information and Technology                3                   9              12                         9                20                29

Ofce of Operations, Security, and
                                                   1                   1                 2                       6                 7                13
Preparedness
Ofce of Acquisitions, Logistics, and
                                                   3                   3                 6                       7                 8                15
Construction
Ofce of Human Resources and
                                                   2                   0                 2                       9                 0                 9
Administration
Corporate Senior Executive Management
                                                   1                   0                 1                       4                 0                 4
Ofce
Ofce of Small and Disadvantaged
                                                   1                   0                 1                       2                 0                 2
Business Utilization
Total                                          132                   35              167                       969                83              1052



                                                                                                              WB P g g j d f pg J o t q f d u ps H f of s b m
67 }                                                                                                      Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
Bqqfoejy C; Tubuvt pg PJH Sfqpsut Vojnqmfnfoufe gps Pwfs 2 Zfbs

         Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                                Responsible   Number of Open
 Report Title, Issue Date, and Number                                        Monetary Impact
                                                Organization Recommendations
 Review of Issues Related to the Loss of VA
 Information Involving the Identity of Millions
                                                   OIT            1 of 6            -
 of Veterans
 7/11/2006 | 06-02238-163

 Recommendation d: We recommend that the Secretary ensure that all position descriptions are evaluated and
 have proper sensitivity level designations, that there is consistency nationwide for positions that are similar
 in nature or have similar access to VA protected information and automated systems, and that all required
 background checks are completed in a timely manner.

 Audit of VA’s Management of Information
 Technology Capital Investments                                OIT               1 of 5                   -
 5/29/2009 | 08-02679-134

 Recommendation 4: We recommend that the Acting Assistant Secretary for Information and Technology clearly
 dene the roles of the IT governance boards responsible for providing oversight and management of VA’s IT
 capital investments.

 Audit of VA Electronic Contract Management
 System                                                       OALC               2 of 8                   -
 7/30/2009 | 08-00921-181

 Recommendation 1: We recommend the Executive Director, Ofce of Acquisition, Logistics, and Construction
 develop and implement VA-wide eCMS policy and handbook to ensure consistent use and compliance with
 system requirements.

 Recommendation 7: We recommend the Executive Director, Ofce of Acquisition, Logistics, and Construction
 coordinate with the Assistant Secretary for Management and the Assistant Secretary for Information and
 Technology to determine the feasibility of integrating eCMS with the IFCAP or FMS systems in order to eliminate
 or minimize duplicate data entry and streamline the procurement process.

 Administrative Investigation, Misuse of
 Position, Abuse of Authority, and Prohibited
 Personnel Practices, Ofce of Information &                   OIT               1 of 11                  -
 Technology, Washington, DC
 8/18/2009 | 09-01123-195

 Recommendation 5: We recommend that the Assistant Secretary for Information and Technology confer with the
 Ofce of Human Resources to determine the appropriate corrective action concerning _______’s appointment, to
 include her appointment at a rate above the minimum, and take such corrective action.




WB P g g j d f pg J o t q f d u ps H f of s b m
Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
                                                                                                                   } 68
        Bqqfoejy C; Tubuvt pg PJH Sfqpsut Vojnqmfnfoufe gps Pwfs 2 Zfbs

        Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                               Responsible   Number of Open
Report Title, Issue Date, and Number                                        Monetary Impact
                                               Organization Recommendations
Administrative Investigation, Nepotism,
Abuse of Authority, Misuse of Position,
Improper Hiring, and Improperly Administered      OIT           8 of 34            -
Awards, OI&T, Washington, DC*
8/18/2009 | 09-01123-196

Recommendation 6: We recommend that the Assistant Secretary for Information and Technology confer with the
Ofce of HR to determine the appropriate corrective action concerning _______’s appointment, to include her
appointment at a rate above the minimum, and take such action.

Recommendation 10: We recommend that the Assistant Secretary for Information and Technology confer with the
Ofce of HR to determine the appropriate corrective action concerning _______’s improper VA appointment, and
take such action.

Recommendation 13: We recommend that the Assistant Secretary for Information and Technology confer with the
Ofce of HR to determine the appropriate corrective action concerning _______’s improper VA appointment, to
include her appointment at a rate above the minimum, and take such action.

Recommendation 26: We recommend that the Assistant Secretary for Information and Technology confer with the
Ofce of HR to determine the appropriate corrective action concerning the improper FCIP appointments, failure to
provide 2-year formal training programs, and subsequent conversions to career-conditional status of _______, and
take such action.

Recommendation 27: We recommend that the Assistant Secretary for Information and Technology confer with the
Ofce of HR to determine whether OI&T managers made additional improper FCIP appointments, failed to provide
a 2-year formal training program, and subsequently converted employees to career-conditional status, and take
appropriate corrective action.

Recommendation 29: We recommend that the Assistant Secretary for Information and Technology confer with
the Ofce of HR to determine the appropriate corrective action concerning the improper DHA appointments of
_______ and take such action.

Recommendation 30: We recommend that the Assistant Secretary for Information and Technology confer with
the Ofce of HR to identify any additional improper VA appointments made using DHA, and take appropriate
corrective action.

Recommendation 33: We recommend that the Assistant Secretary for Information and Technology ensure that a
review of OI&T retention incentives is conducted to ensure that they are necessary and support the mission and
program needs and that they fully comply with law, OPM regulations, and VA policy.

* OIG disagrees with the Ofce of General Counsel’s (OGC’s) legal opinions nding that a violation of the
nepotism statute did not occur and no legal basis exists for collecting funds from individual employees, but closed
recommendations 1, 3, and 18-24 because OIT is planning no further action in light of OGC’s legal opinions. OIG
stands by the recommendations, but will not waste any more resources in pursuit of corrective action.




                                                                                     WB P g g j d f pg J o t q f d u ps H f of s b m
69 }                                                                             Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
Bqqfoejy C; Tubuvt pg PJH Sfqpsut Vojnqmfnfoufe gps Pwfs 2 Zfbs

         Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                                Responsible   Number of Open
 Report Title, Issue Date, and Number                                        Monetary Impact
                                                Organization Recommendations
 Veterans Benets Administration’s Control of
 Veterans’ Claim Folders                           VBA            2 of 9            -
 9/28/2009 | 09-01193-228

 Recommendation 2: We recommended the Under Secretary for Benets establish a mechanism to identify and
 track the number of claims folders regional ofce personnel rebuild.

 Recommendation 9: We recommended the Under Secretary for Benets establish a mechanism to ensure
 regional ofce personnel enforce the maximum 60 day search established in recommendation 8 and take
 corrective actions to meet the standard where improvement is needed.

 Department of Veterans Affairs System
 Development Life Cycle Process                                 OIT                2 of 4                   -
 9/30/2009 | 09-01239-232

 Recommendation 1: We recommend the Assistant Secretary for Information and Technology require OI&T
 develop and issue a directive that communicates, VA-wide, the mandatory requirements of VA’s SDLC process
 outlined in the existing Program Management Guide to ensure consistent management of VA’s IT investment
 portfolio.

 Recommendation 4: We recommend the Assistant Secretary for Information and Technology require OI&T
 establish and maintain a central data repository to store all program artifacts, including cumulative cost and
 schedule data.

 Healthcare Inspection, VistA Outages
 Affecting Patient Care, Ofce of Risk
 Management and Incident Response, Falling                      OIT                1 of 5                   -
 Waters, WV
 12/3/2009 | 09-01849-39

 Recommendation 3: We recommend that the Assistant Secretary for Information and Technology ensure that the
 Ofce for Information Protection and Risk Management performs and reports on risk management for essential
 medical IT systems.

 Inspection of VA Regional Ofce, Roanoke,
 VA                                                             VBA                1 of 6                   -
 1/14/2010 | 09-01995-63

 Recommendation 6: We recommend the Roanoke VA Regional Ofce Director research alternative locations
 to store and safeguard Veterans’ claims folders and expeditiously relocate these folders to reduce the risk of
 structural damage to the building and ensure employee safety.




WB P g g j d f pg J o t q f d u ps H f of s b m
Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
                                                                                                                  } 6:
        Bqqfoejy C; Tubuvt pg PJH Sfqpsut Vojnqmfnfoufe gps Pwfs 2 Zfbs

        Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                               Responsible   Number of Open
Report Title, Issue Date, and Number                                        Monetary Impact
                                               Organization Recommendations
Healthcare Inspection, Hospitalized
Community-Dwelling Elderly Veterans:
Cognitive and Functional Assessments and          VHA            1 of 1            -
Follow-up after Discharge
3/4/2010 | 09-01588-92

Recommendation 1: We recommended that the Under Secretary for Health develop and implement a plan to
ensure that vulnerable elders admitted to hospitals have a documented assessment of cognitive functioning.

Audit of VA’s Efforts to Provide Timely
Compensation and Pension Medical
                                                             VHA                2 of 10                            -
Examinations
3/17/2010 | 09-02135-107

Recommendation 3: We recommend the Acting Under Secretary for Health establish procedures to measure
productivity by identifying the number of full-time equivalents who conduct VHA compensation and pension
medical examinations and establishing standard times to complete each type of compensation and pension
medical examination.

Recommendation 4: We recommend the Acting Under Secretary for Health utilize and monitor data on VHA
workload, costs, and productivity to ensure sufcient and appropriate resources are dedicated to completing
compensation and pension medical examination requests sent to VA medical facilities.

Review of Brachytherapy Treatment of
Prostate Cancer, Philadelphia, Pennsylvania,
                                                             VHA                1 of 5                             -
and Other VA Medical Centers
5/3/2010 | 09-02815-143

Recommendation 3: VHA should review the controls that are in place to ensure that VA contracts for health care
comply with applicable laws and regulations, and where necessary, make the required changes in organization
and/or process to bring this contracting effort into compliance.

Audit of National Call Centers and the Inquiry
Routing and Information System                               VBA                4 of 7                             -
5/13/2010 | 09-01968-150

Recommendation 2: We recommend the Acting Under Secretary for Benets establish a national performance
target for blocked call rate.

Recommendation 3: We recommend the Acting Under Secretary for Benets establish a national performance
standard for productivity at the call agent level.

Recommendation 4: We recommend the Acting Under Secretary for Benets conduct a review of call agent
productivity and call demand to determine what changes in the call center structure and/or additional stafng are
needed to ensure performance standards are met.


                                                                                     WB P g g j d f pg J o t q f d u ps H f of s b m
71 }                                                                             Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
Bqqfoejy C; Tubuvt pg PJH Sfqpsut Vojnqmfnfoufe gps Pwfs 2 Zfbs

         Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                                Responsible   Number of Open
 Report Title, Issue Date, and Number                                        Monetary Impact
                                                Organization Recommendations

 Recommendation 7: We recommend the Acting Under Secretary for Benets establish consistent accuracy
 performance measures and national performance standards for call agents and the IRIS [Inquiry Routing and
 Information System] manager.

 Audit of Oversight of Patient Transportation
 Contracts                                                      VHA                1 of 8                   -
 5/17/2010 | 09-01958-155

 Recommendation 6: We recommend the Under Secretary for Health automate patient transportation billing
 information in order to maintain and retain data needed to efciently perform invoice reconciliation.

 Review of Federal Supply Schedule 621 I –
 Professional and Allied Healthcare Stafng
                                                               OALC                5 of 7                   -
 Services
 6/7/2010 | 08-02969-165

 Recommendation 1: We recommend that the Deputy Assistant Secretary for OAL direct the NAC [National
 Acquisition Center] to not award any 621 I contracts unless the Contracting Ofcer can determine that the prices
 offered are fair and reasonable.

 Recommendation 2: We recommend that the Deputy Assistant Secretary for OAL direct the NAC [National
 Acquisition Center] to eliminate national NTE [not-to-exceed] pricing as a pricing objective, and to establish pricing
 objectives under 621 I contracts that are consistent with the goals of the FSS Program (MFC pricing, or the best
 pricing to commercial customers purchasing under similar terms and conditions as the Government).

 Recommendation 3: We recommend that the Deputy Assistant Secretary for OAL direct the NAC to revise the
 621 I Solicitation’s CSP [Commercial Sales Practices] format to require disclosure of information relevant to
 Recommendation 2.

 Recommendation 4: We recommend that the Deputy Assistant Secretary for OAL direct the NAC to use price
 analysis methodologies that place signicant reliance on the 621 I CSP disclosures, once revised.

 Recommendation 5: We recommend that the Deputy Assistant Secretary for OAL direct the NAC to cease using
 comparisons to existing FSS prices and/or national market surveys as methodologies for establishing price
 reasonableness.

 Combined Assessment Program Review of
 the VA New York Harbor Healthcare System,
                                                                VHA                1 of 9                   -
 New York, New York
 7/21/2010 | 10-00471-201

 Recommendation 9: We recommended that the VISN Director ensure that the System Director requires that
 discharge summaries and discharge instructions include all required elements and that information in the
 summaries and instructions is consistent.



WB P g g j d f pg J o t q f d u ps H f of s b m
Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
                                                                                                                    } 72
        Bqqfoejy C; Tubuvt pg PJH Sfqpsut Vojnqmfnfoufe gps Pwfs 2 Zfbs

        Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                               Responsible   Number of Open
Report Title, Issue Date, and Number                                        Monetary Impact
                                               Organization Recommendations
Healthcare Inspection, Community Based
Outpatient Clinic Reviews: Corpus Christi
and New Braunfels, TX; Long Beach (Cabrillo)
and Santa Fe Springs (Whittier), CA; San
                                                  VHA           1 of 21            -
Diego (Mission Valley) and El Centro (Imperial
Valley), CA; and Commerce (East Los
Angeles) and Oxnard, CA
7/27/2010 | 10-00627-208

Recommendation 19: We recommended that the VISN 22 Director ensure that the Greater Los Angeles HCS
Director provides contract oversight and enforcement in accordance with the terms and conditions as stated in
the contract for the East Los Angeles CBOC. The Greater Los Angeles HCS should research the overpayments
attributable to inactive patients and seek reimbursement for those overpayments.

Audit of Community-Based Outpatient Clinic
Management Oversight                                           VHA                1 of 6                             -
7/28/2010 | 09-02093-211

Recommendation 2: We recommended that the Under Secretary for Health develop a set of comprehensive
monitoring mechanisms to evaluate CBOC performance and hold quarterly CBOC reviews with the Networks to
discuss CBOC performance results, and as needed, corrective actions.

American Recovery and Reinvestment Act
Oversight Advisory Report: Review of Efforts
to Meet Competition Requirements and                          OALC                1 of 5                             -
Monitor Recovery Act Awards
9/17/2010 | 10-00969-248

Recommendation 2: We recommended the Executive Director of the OALC develop and issue a comprehensive
policy that clearly denes the appropriate procedures for the proper completion of adequate contractor
responsibility determinations and related justications.

VA Has Opportunities to Strengthen Program
Implementation of Homeland Security
                                                            OSP/OIT              7 of 11                             -
Presidential Directive 12
9/30/2010 | 10-01575-262

Recommendation 1: We recommend the Assistant Secretary for Operations, Security, and Preparedness, in
conjunction with the Assistant Secretary for Information and Technology, develop a plan to ensure the PIV
[Personal Identity Verication] System interfaces with internal and external systems to electronically verify PIV
credential applicant information.

Recommendation 4: We recommend the Assistant Secretary for Operations, Security, and Preparedness, in
conjunction with the Assistant Secretary for Information and Technology, ensure the PIV System is modied to
provide effective monitoring of System users for unlawful, unauthorized, or inappropriate activities.


                                                                                       WB P g g j d f pg J o t q f d u ps H f of s b m
73 }                                                                               Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
Bqqfoejy C; Tubuvt pg PJH Sfqpsut Vojnqmfnfoufe gps Pwfs 2 Zfbs

         Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                                Responsible   Number of Open
 Report Title, Issue Date, and Number                                        Monetary Impact
                                                Organization Recommendations

 Recommendation 5: We recommend the Assistant Secretary for Operations, Security, and Preparedness, in
 conjunction with the Assistant Secretary for Information and Technology, ensure the required Privacy Impact
 Assessment for the PIV System is prepared and approved annually.

 Recommendation 6: We recommend the Assistant Secretary for Operations, Security, and Preparedness,
 in conjunction with the Assistant Secretary for Information and Technology, dene the extent to which PIV
 credentials will be required to access VA facilities and information systems and develop plans to test and
 implement the infrastructure necessary to establish these controls.

 Recommendation 7: We recommend the Assistant Secretary for Operations, Security, and Preparedness staff
 program vacancies in the HSPD-12 Program Management Ofce.

 Recommendation 8: We recommend the Assistant Secretary for Operations, Security, and Preparedness nalize
 the VA Directive and VA Handbook dening the roles, responsibilities, and processes for implementation and
 ongoing operations of the HSPD-12 Program.

 Recommendation 10: We recommend the Assistant Secretary for Operations, Security, and Preparedness
 implement a formal oversight process to monitor progress in achieving compliance with the requirements of
 HSPD-12.

 Administrative Investigation, Improper
 Locality Rate of Pay Ofce of Information &
                                                               OIT               1 of 4                  -
 Technology VA Central Ofce
 10/14/2010 | 10-02858-07

 Recommendation 4: We recommend that the Principal Deputy Assistant Secretary for OI&T confer with the Ofce
 of Human Resources to determine if there are other VACO OI&T employees with similar situations and take
 appropriate corrective action to determine their duty stations, recoup any monies improperly paid to them, adjust
 any improper payments to their retirement annuities and Thrift Savings Plans, and make any other necessary
 corrections.

 Healthcare Inspection, Evaluation of
 Community Based Outpatient Clinics Fiscal
                                                              VHA                2 of 7                  -
 Year 2009
 10/21/2010 | 10-03103-12

 Recommendation 2: We recommended that the Under Secretary for Health, in conjunction with VISN and
 facility senior managers, collects and appropriately uses PI [performance improvement] data in the medical staff
 reprivileging process.

 Recommendation 4: We recommended that the Under Secretary for Health, in conjunction with VISN and facility
 senior managers, ensures that a vulnerability assessment is conducted at all CBOCs to determine if a panic alarm
 system is required and ensures a system is implemented if one is deemed necessary.




WB P g g j d f pg J o t q f d u ps H f of s b m
Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
                                                                                                                } 74
        Bqqfoejy C; Tubuvt pg PJH Sfqpsut Vojnqmfnfoufe gps Pwfs 2 Zfbs

        Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                               Responsible   Number of Open
Report Title, Issue Date, and Number                                        Monetary Impact
                                               Organization Recommendations
Review of Combat Stress in Women Veterans
Receiving VA Health Care and Disability
                                                  VBA            1 of 4            -
Benets
12/16/2010 | 10-01640-45

Recommendation 1: We recommend the Acting Under Secretary for Benets, in ongoing efforts to modernize the
Rating Board Automation data system, develop reporting capabilities to capture longitudinal data on Veterans’
claims activity.

Combined Assessment Program Review of
the VA North Texas Health Care System,
                                                            VHA                1 of 6                            -
Dallas, Texas
1/12/2011 | 10-02983-55

Recommendation 6: We recommended that normal results be communicated to patients within the specied
timeframe.

Review of Retention Incentive Payments at
VA Medical Center, Providence, Rhode Island                 VHA                3 of 5                    $894,790
1/20/2011 | 10-01937-68

Recommendation 1: We recommend the Under Secretary for Health conduct an independent, 100 percent review
of retention incentives paid to VA Medical Center Providence employees to assess appropriateness and stop
unnecessary payments.

Recommendation 2: We recommend the Under Secretary for Health review and determine the need to continue
payment of a retention incentive to the VA Medical Center Providence Director and other medical center directors
in Veterans Integrated Service Network 1.

Recommendation 3: We recommend the Under Secretary for Health establish a management certication that
requires the Veterans Integrated Service Network 1 Director to review and certify the appropriateness of all
retention incentives paid to senior managers and supervisors in medical facilities within Veterans Integrated
Service Network 1.

Audit of VBA’s 100 Percent Disability
Evaluations                                                 VBA                1 of 7               $1,130,000,000
1/24/2011 | 09-03359-71

Recommendation 7: We recommended the Acting Under Secretary for Benets conduct a review of all temporary
100 percent disability evaluations and ensure each evaluation has a future exam date entered in the Veterans’
electronic records.




                                                                                   WB P g g j d f pg J o t q f d u ps H f of s b m
75 }                                                                           Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
Bqqfoejy C; Tubuvt pg PJH Sfqpsut Vojnqmfnfoufe gps Pwfs 2 Zfbs

         Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                                Responsible   Number of Open
 Report Title, Issue Date, and Number                                        Monetary Impact
                                                Organization Recommendations
 Combined Assessment Program Summary
 Report, Evaluation of Magnetic Resonance
 Imaging Safety in Veterans Health                 VHA            4 of 4            -
 Administration Facilities
 1/26/2011 | 09-01038-77

 Recommendation 1: We recommended that the Under Secretary for Health, in conjunction with VISN and facility
 senior managers, ensures that all employees who may need to enter the MRI [magnetic resonance imaging] suite
 receive initial and annual MRI safety training.

 Recommendation 2: We recommended that the Under Secretary for Health, in conjunction with VISN and facility
 senior managers, ensures that employees screen patients prior to MRI scans, obtain necessary signatures
 on screening forms, retain screening forms in patient medical records, and document follow-up on potential
 contraindications for MRI.

 Recommendation 3: We recommended that the Under Secretary for Health, in conjunction with VISN and facility
 senior managers, ensures that informed consents specic to MRI with contrast are completed for all high-risk
 patients and documented in the medical records.

 Recommendation 4: We recommended that the Under Secretary for Health, in conjunction with VISN and
 facility senior managers, ensures that physical barriers are in place, call systems are tested and maintained, risk
 assessments are completed, and emergency drills are conducted.

 Combined Assessment Program Review
 of the Hunter Holmes McGuire VA Medical
                                                               VHA                 1 of 5                  -
 Center, Richmond, Virginia
 1/31/2011 | 10-02987-78

 Recommendation 4: We recommended that normal test results be consistently communicated to patients within
 the specied timeframe.

 Audit of the Veterans Service Network
                                                                OIT                1 of 9            $35,000,000
 2/18/2011 | 09-03850-99

 Recommendation 3: We recommend the Assistant Secretary, Ofce of Information and Technology, dene
 the level of effort and apply the resources required to complete data migration for all entitlement programs and
 decommission the Benets Delivery Network legacy system.




WB P g g j d f pg J o t q f d u ps H f of s b m
Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
                                                                                                                    } 76
        Bqqfoejy C; Tubuvt pg PJH Sfqpsut Vojnqmfnfoufe gps Pwfs 2 Zfbs

        Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                               Responsible   Number of Open
Report Title, Issue Date, and Number                                        Monetary Impact
                                               Organization Recommendations
Community Based Outpatient Clinic Reviews:
Spring City and Springeld, PA; Sarasota and
Sebring, FL; Paragould, AR, and Salem, MO;        VHA           1 of 18            -
Cottonwood and Lake Havasu City, AZ
2/28/2011 | 11-00840-104

Recommendation 14: We recommended that normal test results at the Lake Havasu City CBOC be communicated
to patients within the specied timeframe.

Healthcare Inspection, Radiation Safety in
Veterans Health Administration Facilities                     VHA                2 of 5                            -
3/10/2011 | 10-02178-120

Recommendation 1: We recommended that the Under Secretary for Health, in conjunction with VISN and facility
senior managers clarify the current expectations for frequency of physician peer review practices in RT [radiation
therapy].

Recommendation 5: We recommended that the Under Secretary for Health, in conjunction with VISN and facility
senior managers ensure that the uoroscopy handbook is implemented.

Combined Assessment Program Summary
Report, Evaluation of Reusable Medical
Equipment Practices in Veterans Health                        VHA                5 of 6                            -
Administration Facilities
3/14/2011 | 10-00135-121

Recommendation 1: We recommended that the Under Secretary for Health, in conjunction with VISN and facility
senior managers, ensures that SOPs [standard operating procedures] are current, consistent with manufacturers’
instructions, and located within the reprocessing areas.

Recommendation 2: We recommended that the Under Secretary for Health, in conjunction with VISN and facility
senior managers, ensures that employees consistently follow SOPs, that supervisors monitor compliance, and that
annual training and competency assessments are completed and documented.

Recommendation 3: We recommended that the Under Secretary for Health, in conjunction with VISN and facility
senior managers, ensures that ash sterilization is used only in emergent situations, that supervisors monitor
compliance, and that managers complete and document annual competency assessments for employees who
perform ash sterilization.

Recommendation 4: We recommended that the Under Secretary for Health, in conjunction with VISN and facility
senior managers, ensures that appropriate PPE [protective personal equipment] is donned before entering and
worn in decontamination areas.

Recommendation 6: We recommended that the Under Secretary for Health, in conjunction with VISN and facility
senior managers, ensures that processes for consistent internal oversight of RME [va] activities are established to
ensure senior management involvement.

                                                                                     WB P g g j d f pg J o t q f d u ps H f of s b m
77 }                                                                             Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
Bqqfoejy C; Tubuvt pg PJH Sfqpsut Vojnqmfnfoufe gps Pwfs 2 Zfbs

         Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                                Responsible   Number of Open
 Report Title, Issue Date, and Number                                        Monetary Impact
                                                Organization Recommendations
 Combined Assessment Program Review of
 the Richard L. Roudebush VA Medical Center,
                                                   VHA           8 of 22            -
 Indianapolis, Indiana
 3/23/2011 | 10-03092-129

 Recommendation 1: We recommended that moderate sedation documentation include all required components
 and that supervisors monitor compliance.

 Recommendation 3: We recommended that required annual bloodborne pathogens training, radiation safety
 training, and N95 respirator t testing be completed by designated employees and documented.

 Recommendation 9: We recommended that at least two requests to verify physicians’ currently held or most
 recently held clinical privileges be made and documented.

 Recommendation 11: We recommended that FPPEs [Focused Professional Practice Evaluations] be initiated for
 all physicians who have been newly hired or have added new privileges.

 Recommendation 12: We recommended that service-specic competency criteria be created, approved, and
 implemented.

 Recommendation 13: We recommended that diagnostic clinicians consistently document the time critical results
 were communicated to ordering providers.

 Recommendation 14: We recommended that ordering providers document patient notication and treatment
 actions in response to critical results.

 Recommendation 19: We recommended that advance directives developed using the VA form be appropriately
 witnessed and that a copy of the completed document be provided to the patient.


 Review of VBA’s Pension Management
 Centers                                                    VBA               4 of 4                 -
 3/30/2011 | 10-00639-135

 Recommendation 1: We recommend the Acting Under Secretary for Benets establish an operational plan to
 ensure Pension Management Centers efciently and effectively manage the workload to achieve timeliness
 standards.

 Recommendation 2: We recommend the Acting Under Secretary for Benets modify the Performance and
 Accountability Report to provide separate performance measures for signicant Pension Management Center
 processing actions, such as original death pensions and Income Verication Matches.




WB P g g j d f pg J o t q f d u ps H f of s b m
Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
                                                                                                            } 78
        Bqqfoejy C; Tubuvt pg PJH Sfqpsut Vojnqmfnfoufe gps Pwfs 2 Zfbs

        Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                               Responsible   Number of Open
Report Title, Issue Date, and Number                                        Monetary Impact
                                               Organization Recommendations

Recommendation 3: We recommend the Acting Under Secretary for Benets establish specic performance goals
for Income Verication Matches and implement controls to ensure timely processing to reduce overpayments,
including exploring alternative measures such as assigning a dedicated claims processor or team to process
Income Verication Matches.

Recommendation 4: We recommend the Acting Under Secretary for Benets explore opportunities to obtain
Internal Revenue Service and Social Security Administration data quicker to ensure Income Verication Matches
are processed timely to reduce overpayments.

TOTAL                                                                          79                  $1,165,894,790




                                                                                  WB P g g j d f pg J o t q f d u ps H f of s b m
79 }                                                                          Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
Bqqfoejy D; Jotqfdups Hfofsbm Bdu Sfqpsujoh Sfrvjsfnfout

The table below cross-references the specic pages in this Semiannual Report to the reporting
requirements where they are prescribed by the Inspector General Act, as amended by the Inspector
General Act Amendments of 1988, P.L. 100-504, and the Omnibus Consolidated Appropriations Act of
1997, P.L. 104-208.

The Federal Financial Management Improvement Act of 1996 (FFMIA) requires OIG to report instances
and reasons when VA has not met the intermediate target dates established in the VA remediation plan
to bring VA’s nancial management system into substantial compliance with FFMIA. The audit of VA’s
FY 2011 consolidated nancial statements reported that VA did not substantially comply with the Federal
nancial management systems requirements of FFMIA. This condition was due to a material weakness
in information technology security controls and two signicant deciencies concerning accrued operating
expenses and loan guaranty reporting. Also, the audit noted that VA’s underlying nancial systems were
complex and disjointed legacy applications and operating platforms that sometimes did not readily support
nancial amounts or sometimes required manual processing and reconciliation.


       IG Act                                               Reporting                                            Status
     References                                            Requirements
                                                                                                          295 total reviews
  Section 4 (a) (2)               Review of legislative, regulatory, and administrative proposals
                                                                                                          commented on 33 times
  Section 5 (a) (1)               Signicant problems, abuses, and deciencies                            See pages 9-44

                                  Recommendations with respect to signicant problems, abuses,
  Section 5 (a) (2)                                                                                       See pages 9-44
                                  and deciencies
                                  Prior signicant recommendations on which corrective action has
  Section 5 (a) (3)                                                                                       See pages 56-68
                                  not been completed
                                  Matters referred to prosecutive authorities and resulting
  Section 5 (a) (4)                                                                                       See pages 24-40
                                  prosecutions and convictions

  Section 5 (a) (5)               Summary of instances where information was refused                      None

                                  List of reports by subject matter, showing dollar value of questioned
  Section 5 (a) (6)                                                                                       See pages 46-55
                                  costs and recommendations that funds be put to better use
  Section 5 (a) (7)               Summary of each particularly signicant report                          See pages 9-44

                                  Statistical tables showing number of reports and dollar value of
  Section 5 (a) (8)                                                                                       See page 70
                                  questioned costs for unresolved, issued, and resolved reports
                                  Statistical tables showing number of reports and dollar value of
  Section 5 (a) (9)               recommendations that funds be put to better use for unresolved,         See page 70
                                  issued, and resolved reports
                                  Summary of each audit report issued before this reporting period
  Section 5 (a) (10)              for which no management decision was made by end of reporting           See page 70
                                  period
  Section 5 (a) (11)              Signicant revised management decisions                                 None

                                  Signicant management decisions with which the Inspector General
  Section 5 (a) (12)                                                                                      None
                                  is in disagreement
  Section 5 (a) (13)              Information described under section 5(b) of FFMIA                       See page 69


WB P g g j d f pg J o t q f d u ps H f of s b m
Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
                                                                                                                             } 7:
             Bqqfoejy D; Jotqfdups Hfofsbm Bdu Sfqpsujoh Sfrvjsfnfout

                        Table 1: Resolution Status of Reports with Questioned Costs
                                                                                                Dollar Value
                       Resolution Status                             Number
                                                                                                (In Millions)
 No management decision by 03/31/2011                                    0                                    $0
 Issued during reporting period                                          3                          $4,864,100
   Total inventory this period                                           3                             $4,864,100
 Management decisions during the reporting period
   Disallowed costs (agreed to by management)                            3                             $4,864,100
   Allowed costs (not agreed to by management)                           0                                            $0
       Total management decisions this reporting period                  3                             $4,864,100
       Total carried over to next period                                 0                                            $0


                   Table 2: Resolution Status of Reports with Recommended Funds
                               To Be Put To Better Use By Management
                                                                                                Dollar Value
                       Resolution Status                             Number
                                                                                                (In Millions)
 No management decision by 03/31/2011                                    0                                    $0
 Issued during reporting period                                          4                           $47,843,348
  Total inventory this period                                            4                           $47,843,348
 Management decisions during the reporting period
   Disallowed costs (agreed to by management)                            4                           $47,843,348
   Allowed costs (not agreed to by management)                           0                                    $0
       Total management decisions this reporting period                  4                           $47,843,348
       Total carried over to next period                                 0                                    $0




                                                                              WB P g g j d f pg J o t q f d u ps H f of s b m
81 }                                                                      Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
Bqqfoejy E; Hpwfsonfou Dpousbdups Bveju Gjoejoht
The National Defense Authorization Act for Fiscal Year 2008, P.L. 110-181, requires each IG appointed
under the Inspector General Act of 1978 to submit an appendix on nal, completed contract audit reports
issued to the contracting activity that contain signicant audit ndings—unsupported, questioned, or
disallowed costs in an amount in excess of $10 million, or other signicant ndings—as part of the
Semiannual Report to Congress. During this reporting period, OIG issued no contract review reports
under this requirement.




WB P g g j d f pg J o t q f d u ps H f of s b m
Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
                                                                                                     } 82
        Bqqfoejy F; Bnfsjdbo Sfdpwfsz boe Sfjowftunfou Bdu Pwfstjhiu Bdujwjujft

Enacted in February 2009, the American Recovery and Reinvestment Act of 2009 (ARRA) requires OIG to
conduct oversight of the VA projects, programs, grants, and initiatives that received a total of $1.4 billion
in funding under the Act. OIG’s program of oversight includes audits, evaluations, investigation, fraud
awareness and prevention training, and other monitoring activities covering the major VA programs that
received ARRA funding. The VA programs and the amounts of their ARRA funding include:
   •	 $1.0 billion for VHA medical facility nonrecurring maintenance (NRM) and energy projects.
   •	 $150.0 million for VHA Grants to States for extended care facilities.
   •	 $50.0 million for NCA headstone, marker, gravesite, and monument repairs; NRM, energy, and
      road repair projects; and equipment upgrades.
   •	 $150 million for VBA claims processing hiring initiative and support of Veterans economic recovery
      payments.
   •	 $45 million for OIT support of VBA implementation of the new Post 9/11 GI Bill education
      assistance programs for Veterans.

Additionally, the Act provided for an estimated $700 million for the one-time $250 economic recovery
payments to Veterans and their survivors or dependents.

As of March 31, 2012, OIG has expended $2.5 million (the entire $1.0 million OIG received under ARRA
and $1.5 million from regular appropriations) in conducting its comprehensive program of ARRA oversight.
OIG’s ARRA-related accomplishments and activities completed to date include:
   •	 Issued seven nal audit and evaluation reports and one interim advisory report on VA management
      of ARRA program activities.
   •	 Conducted 570 fraud awareness training and outreach sessions across the country attended by
      over 16,600 VA and other ofcials responsible for managing or overseeing ARRA programs and
      projects.
   •	 Opened 337 and closed 181 criminal investigations, including 55 convictions, 82 referrals for
      monetary reclamation, and $48,750 in recoveries related to ARRA-funded programs and projects.
   •	 Received 64 Hotline complaints of potential fraud or waste related to ARRA programs or projects.
   •	 Maintains the OIG Recovery Act Web Site, http://www.va.gov/oig/recovery, which provides access
      to the VA OIG Hotline and information on OIG ARRA reports, activities, plans, and fraud prevention
      training materials.

Under ARRA, an employee of any non-Federal employer receiving covered ARRA funds may not be
discharged, demoted, or otherwise discriminated against as a reprisal for disclosing information that the
employee reasonably believes is evidence of: 1) gross mismanagement of an agency contract or grant
relating to covered funds; 2) a gross waste of covered funds; 3) a substantial and specic danger to public
health or safety related to the implementation or use of covered funds; 4) an abuse of authority related
to the implementation or use of covered funds, or 5) a violation of law, rule, or regulation related to an
agency contract or grant, awarded or issued relating to covered funds.

Pursuant to the reporting requirements under this provision, OIG conducted no investigations such as
those described above. Consequently, OIG did not request or receive an extension beyond the 180-day
period for such investigations.


                                                                                  WB P g g j d f pg J o t q f d u ps H f of s b m
83 }                                                                          Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
Bqqfoejy G; Sftupsjoh Bnfsjdbo Gjobodjbm Tubcjmjuz Bdu Sfqpsujoh Sfrvjsfnfout

Pursuant to the Restoring American Financial Stability Act of 2010, P.L. 111-203, OIG reports that no
peer reviews were conducted by another OIG during the reporting period ending March 31, 2012. The
last peer review was conducted by the USDA OIG on December 23, 2009, and contained no outstanding
recommendations. The next peer review will be initiated in September 2012 by the DOL OIG. VA OIG
completed an external peer review of the Department of Transportation OIG and issued the nal report on
March 3, 2010, which contained no recommendations. In March 2012, VA OIG initiated a peer review for
SSA OIG.

Additionally, OIG reports that no Council of the Inspectors General on Integrity and Efciency (CIGIE)
Qualitative Assessment Review (QAR) was conducted by another OIG during the reporting period
ending March 31, 2012. The last CIGIE QAR conducted on VA OIG’s investigative operation was
completed by the Department of Education OIG in 2009. The report contained no recommendations.
VA OIG conducted a CIGIE QAR of the SBA OIG’s investigative operation and issued the nal report on
December 21, 2011, which contained no recommendations.




WB P g g j d f pg J o t q f d u ps H f of s b m
Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
                                                                                                    } 84
       This page left blank intentionally.




                                                 WB P g g j d f pg J o t q f d u ps H f of s b m
85 }                                         Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
                                                  This page left blank intentionally.




WB P g g j d f pg J o t q f d u ps H f of s b m
Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
                                                                                        } 86
       This page left blank intentionally.




                                                 WB P g g j d f pg J o t q f d u ps H f of s b m
87 }                                         Jttvf 78 } Ñ½¬±¾»® ïô îðïï Ó¿®½¸ íïô îðïî
On the Cover
Thousands of people gathered at National Cemeteries nationwide to participate in Wreaths Across
America, an annual event that placed over 90,000 wreaths on headstones. Wreaths were placed at
740 cemeteries worldwide, including over 100 VA national cemeteries. The event was held on
December 10, 2011. Photos courtesy of the Department of Veterans Affairs.
(#.5..-5*,.'(.5) 5.,(-5Ŀ5#,-
                  Ń
                   555) 5	(-*.),5(,&




Report Fraud, Waste, Abuse, or Misconduct
Help VA’s Secretary ensure the integrity of departmental operations by
reporting suspected criminal activity, waste, abuse, or misconduct in VA
       programs or operations to the Inspector General Hotline.
                    Callers can remain anonymous.

          Telephone: 800-488-VAIG (8244) | Fax: 202-565-7936

        E-mail: vaoighotline@va.gov | http://www.va.gov/oig/hotline/


                      *,.'(.5) 5.,(-5Ŀ5#,-
                     Inspector General Hotline (53E)

                             P.O. Box 50410

                       Washington, DC 20091-0410

